<html>
<title> - [H.A.S.C. No. 114-78] OUTSIDE VIEWS ON THE U.S. STRATEGY FOR IRAQ AND SYRIA AND THE EVOLUTION OF ISLAMIC EXTREMISM</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






 
                         [H.A.S.C. No. 114-78]

     OUTSIDE VIEWS ON THE U.S. STRATEGY FOR IRAQ AND SYRIA AND THE

                     EVOLUTION OF ISLAMIC EXTREMISM

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                            JANUARY 12, 2016


                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-887                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

















                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Fourteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
J. RANDY FORBES, Virginia            LORETTA SANCHEZ, California
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                NIKI TSONGAS, Massachusetts
BILL SHUSTER, Pennsylvania           JOHN GARAMENDI, California
K. MICHAEL CONAWAY, Texas            HENRY C. ``HANK'' JOHNSON, Jr., 
DOUG LAMBORN, Colorado                   Georgia
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            JOAQUIN CASTRO, Texas
JOHN FLEMING, Louisiana              TAMMY DUCKWORTH, Illinois
MIKE COFFMAN, Colorado               SCOTT H. PETERS, California
CHRISTOPHER P. GIBSON, New York      MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
JOSEPH J. HECK, Nevada               TIMOTHY J. WALZ, Minnesota
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
MO BROOKS, Alabama                   DONALD NORCROSS, New Jersey
RICHARD B. NUGENT, Florida           RUBEN GALLEGO, Arizona
PAUL COOK, California                MARK TAKAI, Hawaii
JIM BRIDENSTINE, Oklahoma            GWEN GRAHAM, Florida
BRAD R. WENSTRUP, Ohio               BRAD ASHFORD, Nebraska
JACKIE WALORSKI, Indiana             SETH MOULTON, Massachusetts
BRADLEY BYRNE, Alabama               PETE AGUILAR, California
SAM GRAVES, Missouri
RYAN K. ZINKE, Montana
ELISE M. STEFANIK, New York
MARTHA McSALLY, Arizona
STEPHEN KNIGHT, California
THOMAS MacARTHUR, New Jersey
STEVE RUSSELL, Oklahoma

                  Robert L. Simmons II, Staff Director
                 Alex Gallo, Professional Staff Member
                      William S. Johnson, Counsel
                         Britton Burkett, Clerk
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Sanchez, Hon. Loretta, a Representative from California, 
  Committee on Armed Services....................................     1
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Ford, Robert S., Former Ambassador to Syria......................     8
Morell, Michael J., Former Acting Director of the Central 
  Intelligence Agency............................................     3
Vickers, Michael G., Former Under Secretary of Defense for 
  Intelligence...................................................     6

                                APPENDIX

Prepared Statements:

    Ford, Robert S...............................................    67
    Morell, Michael J............................................    51
    Vickers, Michael G...........................................    59

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no answers provided to Questions submitted during 
      the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Franks...................................................    79
    Mr. Langevin.................................................    79
    
    
    
    
    
    
    
    
    
    
    
    
OUTSIDE VIEWS ON THE U.S. STRATEGY FOR IRAQ AND SYRIA AND THE EVOLUTION 
                          OF ISLAMIC EXTREMISM

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Tuesday, January 12, 2016.
    The committee met, pursuant to call, at 10:01 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    The committee is very pleased today to welcome three 
distinguished public servants to help offer us some insights on 
ISIS [Islamic State of Iraq and Syria] and the general 
direction of radical Islamist terrorism. Each of these 
gentlemen have served not only in the Obama administration but 
in previous administrations in a variety of agencies, and I am 
certainly very grateful that they would be willing to come 
today to help share their insights on this threat that we face, 
on what we can and should do about it, and the direction that 
this ideology, this threat that we have dealt with, especially 
since 9/11, should be.
    Certainly we know that there is some success in reclaiming 
towns in Iraq, but at the same time ISIS seems to spread and 
deepen its hold in sections of Libya all the way across to 
Afghanistan. So this broader direction is something that I 
think we need to understand and try to get our arms around.
    In addition, this threat extends to us here at home, as we 
have seen in recent days and weeks. We are not exempt from its 
reach. So we need the expertise that these gentlemen can 
provide and the guidance that they can provide us in carrying 
out our responsibilities, and we are glad to have them today.
    Mr. Smith is not here today, so I would yield to the 
gentlelady from California, Ms. Sanchez, for any comments she 
would like to make.

   STATEMENT OF HON. LORETTA SANCHEZ, A REPRESENTATIVE FROM 
            CALIFORNIA, COMMITTEE ON ARMED SERVICES

    Ms. Sanchez. Thank you. I will read a few of these 
comments, Mr. Chairman, only because Mr. Smith wanted to make 
sure that--I want to make sure that we provide some of his 
voice while he is gone.
    Thank you, gentlemen, for being before us today, and I 
welcome you. And I hope that you can in fact shed light on what 
is a very complicated situation.
    No longer is this just about whether we send in ground 
troops to counter ISIL [Islamic State of Iraq and the Levant] 
or not. We see ISIL's influence permeating into so many 
different countries, permeating through the Internet, in the 
dark spaces of the Internet that none of us really can 
understand. We see it in the violence that we have in Europe, 
in the Middle East. And, of course, we saw its influence in my 
home State, just 20 miles away from where I live, in San 
Bernardino.
    So the influence of ISIL is spreading; I think we have to 
get our heads around that. And we also see other extremist 
groups that are beginning to align or coordinate with ISIL from 
North Africa, and this is a problem.
    So, in general, I would say that the international 
community, the U.S., the Democrats, Republicans, we are trying 
to really grapple with how we define, how we handle, what is 
the best way in which we defeat this evolving situation of ISIL 
and aligned groups.
    And although we have seen progress on ISIL--for example, 
Iraq's reclaiming of Ramadi--the situation appears to be 
growing even more complex, and I am worried that it may get 
even more difficult given the situation between Saudi Arabia 
and Iran, for example.
    I am also concerned--I think we need a clearer strategy. 
And I don't know that that strategy is one we want to make 
public, Mr. Chairman, because I am always one of those people 
that says, if you are going to battle someone, you want the 
upper hand, but I think we, as the representatives of the 
people, need to understand what the strategy is. Because if we 
can understand how we go about this, then we can agree, as 
Democrats and Republicans, as Americans really, to put in the 
resources that are required to get the job done.
    As I have stated before, defeating ISIL will require a 
broad commitment that will take many years to take the effect 
that we want. But we cannot allow ourselves to be pulled into 
the same types of mistakes that we saw in the Iraq war. ISIL is 
out to get us, and we need to understand that. It is not just 
about over there; it has now come here. So we have to figure 
out how to expose the dark and the hopeless nature of ISIL's 
vicious and morally bankrupt agenda, and we have to do 
everything to delegitimize ISIL's twisted and lurid appeal.
    And it is beyond my comprehension--let me end with this, 
Mr. Chairman--beyond my comprehension how, in today's world, we 
can have such a massive humanitarian crisis occurring in Syria 
and where we could have 40,000 civilians in the city of Madaya 
starving to death as a result of ISIL and Assad and the 
confluence of what is happening there.
    So I am interested in your views today, trying to find some 
answers, trying to find that nugget of what is a real strategy 
that we and our allies--because it will take more than just the 
U.S. to resolve this issue.
    I yield back, and I look forward to your testimony, 
gentlemen.
    The Chairman. The committee is pleased to welcome with us 
today Mr. Mike Morell, former Acting Director of the Central 
Intelligence Agency; Dr. Michael Vickers, former Under 
Secretary of Defense for Intelligence; and Mr. Robert Ford, 
former Ambassador to Syria.
    Committee members have their complete background 
information. Those were only the last jobs of these guys.
    Again, thank you all for being here. Without objection, 
your complete written statement will be made part of the 
record, and we would like to hear any oral comments that you 
would like to make at this time.
    Mr. Morell.

 STATEMENT OF MICHAEL J. MORELL, FORMER ACTING DIRECTOR OF THE 
                  CENTRAL INTELLIGENCE AGENCY

    Mr. Morell. Thank you.
    Chairman Thornberry, Congresswoman Sanchez, members of the 
committee, good morning, and thank you for the invitation to be 
here today to talk about an extremely important national 
security challenge facing our Nation.
    It is an honor to be here. Indeed, I am humbled that you 
have asked me here to hear my thoughts. And it is good to see 
so many old friends, both on the committee and here at the 
table with me.
    I plan on keeping my opening remarks short. Over the years, 
I have come to understand that questions and answers are a much 
more effective way to get to understanding than hearing 
somebody read a long testimony.
    Let me start with the bottom line: I believe ISIS poses a 
significant strategic and lethal threat to the United States of 
America. That is a very strong statement. Let me walk you 
through why I believe that.
    The nature and the significance of the threat posed by ISIS 
flows from the fact that ISIS is at the same time a terrorist 
group, a quasi-state, and a revolutionary political movement. 
We have not faced the likes of it before.
    As a terrorist group, ISIS poses a threat to the U.S. 
homeland. In mid-2015, so just 6 months ago, that threat was 
largely indirect--ISIS's ability to radicalize young American 
men and women to conduct lone-wolf attacks here. That indirect 
threat remains today.
    There are thousands of ISIS sympathizers in the United 
States, more than Al Qaeda ever had. The FBI [Federal Bureau of 
Investigation] has over 900 open investigations into homegrown 
extremists, the vast majority radicalized by ISIS and a large 
number of which relate to individuals who may be plotting 
attacks here.
    Such attacks have already occurred in the United States, 
including the attack in San Bernardino last month, which in 
terms of fatalities was the largest terrorist attack in the 
United States since 9/11. There are other ISIS supporters who 
have been arrested before they could act.
    Today, in addition to that indirect threat, we face a 
direct threat from ISIS--an ISIS capability to plan and direct 
attacks in the homeland from the group's safe haven in Iraq and 
Syria, largely from Raqqah in Syria, just like the group did in 
Paris in November. The Paris attack, as you know, was the 
largest attack in Western Europe since the Madrid train 
bombings in 2004 and the first ISIS-directed attack in the West 
ever.
    What is the difference between the direct threat and an 
indirect threat? Why does it matter? A lone-wolf attack, while 
horrific, is likely to produce fairly limited casualties on the 
order of the Boston Marathon bombing in 2013--3 killed--or the 
shootings at Fort Hood in 2009--12 killed.
    A directed attack, however, carries the potential to be 
more complex and more sophisticated--multiple simultaneous 
attacks, for example--and, therefore, more deadly, again, just 
like Paris--130 killed--or London in 2005--56 killed--or even 
9/11 itself.
    The attack in Paris was the first manifestation of an 
effort that ISIS has made to put together an attack capability 
in Europe, an effort they began less than a year before the 
Paris attack. More attacks in Europe are likely. The head of 
the U.K.'s [United Kingdom's] domestic security agency has 
warned that ISIS is planning mass casualty attacks in Britain. 
ISIS has said that it wants to conduct similar attacks in the 
United States.
    One of the things I learned in 33 years in the CIA [Central 
Intelligence Agency] is sometimes it is really important to 
listen to what your adversary tells you. Sometimes they tell 
you exactly what they are going to do. ISIS has told us they 
are going to attack us here.
    Now that they have the attack capability in Europe, they 
are almost certainly working to do the same thing here. And 
unless they are degraded, they will succeed. I don't have any 
doubt about that.
    Switching from terrorist group to quasi-state, as a quasi-
state, ISIS poses a threat to regional stability. ISIS is a 
state in every respect of the word except one: It does not have 
foreign recognition or relations with other states. But in 
every other respect it is a state. It has an executive, it has 
an army, it has a police force, it has a set of laws, it has a 
judiciary, it provides social services, it takes care of its 
poor, and it raises taxes.
    Why does it matter that ISIS is a quasi-state? Two reasons.
    One is that, as a state, it can utilize all of the 
resources, human and otherwise, within the area that it 
controls in the pursuit of its objectives. The best example of 
this is the tens of millions of dollars a month in revenue that 
ISIS earns from taxing the people that are inside the 
caliphate. They actually earn more in taxes than they do in oil 
sales.
    And, two, the second reason it is important that it is a 
state is that it is going to make it more difficult to dislodge 
them. They have become deeply rooted in the areas that they 
control. The ISIS threat to regional stability is a threat to 
the very territorial integrity of the current nation-states 
there, a threat to inflame the entire region, I think, in 
sectarian war.
    All of this--all of this--in a part of the world that still 
provides almost a third of the world's oil supply; a region 
that is home to one of America's closest allies, Israel; and a 
region that is home to a set of close American allies, the Gulf 
Arab states, that are a bulwark against Iran's push for 
hegemony in the region.
    Third, as a revolutionary political movement, ISIS is 
gaining affiliates--this was mentioned in the opening 
statements--ISIS is gaining affiliates among extremist groups 
around the world. These groups are signing up for what ISIS 
desires as its objective: a global caliphate where day-to-day 
life is governed by extreme religious views. In the mind of 
ISIS, its global caliphate would extend to the United States of 
America itself.
    When they join ISIS, these affiliates evolve from focusing 
on local issues, local grievances, to focusing on establishing 
an extension of the caliphate themselves. They want their own 
little caliphates. And their targets evolve from local to 
international ones. This is the story of the bombing of the 
Russian airliner by an ISIS group in the Egyptian Sinai, only 
the third airliner brought down by a bomb in the last 25 years. 
It is remarkable.
    ISIS has gained affiliates faster than Al Qaeda ever did. 
From nothing a year ago, there are now militant groups in 
nearly 20 countries that have sworn allegiance to ISIS. They 
have conducted attacks that have already killed Americans, and 
they carry the potential to, themselves, grab large amounts of 
territory.
    Libya is a place where this could happen in the near term. 
ISIS controls territory in Libya. They are currently expanding 
that territory, and foreign fighters are beginning to go to 
Libya to fight with the ISIS group there. I would not be 
surprised if we woke up one morning and ISIS in Libya had 
grabbed a large part of Libyan territory, the same kind of 
blitzkrieg on a smaller scale that we saw in Iraq.
    Degrading and ultimately defeating ISIS will both require 
removing the leadership from the battlefield and will require 
the shrinking and the eventual elimination of the safe haven, 
the elimination of the quasi-state, which is currently the size 
of Great Britain.
    The safe haven, the state, is a key part of the ISIS 
narrative that it is winning. As long as they have it--right?--
they have a narrative that they are winning. This narrative is 
absolutely critical to them. It is absolutely critical to 
radicalizing homegrown extremists here and absolutely critical 
to creating affiliates among other militant groups around the 
world.
    The safe haven provides security for ISIS to plot and to 
train. There are two things that are necessary for a successful 
attack on the homeland: a desire to do so and the capability to 
do it. And the safe haven allows for the building of that 
capability.
    And the safe haven provides a place for foreign fighters to 
gather. No safe haven, no place to gather. Nearly 30,000 
individuals from over 100 countries have traveled to Syria and 
Iraq to fight. Some are homesteading there to help create the 
caliphate. Others will die on the battlefield. But still others 
will return home, carrying with them the potential to conduct 
attacks. This has already happened in Europe, as you know. This 
creates the potential for attacks that cause more casualties 
because the individuals who return home will have battlefield 
experience.
    Removing the leadership is easier than eliminating the safe 
haven. The former requires good intelligence and the military 
assets to turn that intelligence into action. The latter 
requires complex military operations in both Iraq and Syria, 
and it requires a political solution in Damascus to the problem 
of Bashar al-Assad and a political solution in Iraq to the 
problem of the disenfranchisement of the Sunnis there.
    Mr. Chairman, let me close with this. Early last month, 
during a debate in the British Commons over whether Parliament 
should authorize British air strikes against ISIS in Syria, the 
Labour Party's shadow minister for foreign affairs, Hilary 
Benn, gave a remarkable speech. Some of his colleagues called 
it one of the greatest speeches in the history of the British 
Commons.
    Benn, breaking with his own party leader and supporting 
British air strikes in Syria, said, and I quote, ``We are here 
faced by fascists, not just their calculated brutality but 
their belief that they are superior to every single one of us 
in this chamber tonight and all of the people that we 
represent. They hold us in contempt. They hold our values in 
contempt. They hold our belief in tolerance and decency in 
contempt. They hold our very democracy in contempt.''
    Benn went on, and I quote, ``What we know about fascists is 
that they need to be defeated. It is why this entire house 
stood up against Hitler and Mussolini. We must now confront 
this evil.''
    Mr. Chairman, I associate myself with Hilary Benn's 
remarks. That is the picture as I see it as a former 
intelligence officer who spent years watching Al Qaeda and 
other terrorist groups. I look forward to your questions.
    [The prepared statement of Mr. Morell can be found in the 
Appendix on page 51.]
    The Chairman. Thank you.
    Dr. Vickers.

  STATEMENT OF MICHAEL G. VICKERS, FORMER UNDER SECRETARY OF 
                    DEFENSE FOR INTELLIGENCE

    Dr. Vickers. Chairman Thornberry, Congresswoman Sanchez, 
distinguished members of the committee, good morning. It is a 
privilege and pleasure to be with the House Armed Services 
Committee to provide an outside view on U.S. strategy for Iraq, 
Syria, and the global jihadist threat.
    My former colleague and dear friend, Michael Morell, has 
described the threats that ISIS, or ISIL, poses. The ISIS 
threat is nested in several other conflicts that are raging 
across the Middle East--civil war and sectarian conflict, the 
global jihad, and then proxy war between Saudi Arabia and its 
allies and Iran and its allies.
    In my opening statement this morning, I would like to offer 
a few thoughts on how I believe U.S. strategy needs to be 
intensified and accelerated to deal with these challenges.
    The aims of U.S. strategy in the Middle East should be 
threefold: one, to prevent a major attack on the U.S. homeland 
and defeat the global jihadist threat; two, to reassure our 
allies and partners and contain Iran; and, three, to restore a 
favorable balance of power and greater stability across the 
Middle East.
    I will discuss, in turn, what I believe are the needed 
adjustments to our strategy in Syria and Iraq against the 
global jihadists and against Iran, beginning with Syria.
    Syria is the center of gravity for Middle Eastern conflict. 
It is where the battle for the future of the Middle East is 
largely being waged. A coalition victory in Syria would roll 
back Iranian power and deal a significant blow to the global 
jihadist movement.
    I believe we need to adjust our strategy in Syria in two 
principal ways.
    First, U.S. strategy has treated Syria as a secondary 
theater of war in the Iraq-Syria war. In my judgment, we need 
to shift to a Syria-first strategy and reinvigorate our efforts 
to remove Assad from power.
    Second, we need to significantly intensify our operations. 
Strike sorties and the weight of strikes need to be 
significantly increased, as does coalition support, both 
quantitative and qualitative, for the moderate Syrian 
opposition. It is not too late to decisively support the 
opposition. We did not develop a war-winning strategy, for 
example, until the sixth year of our covert war against the 
Soviet occupation of Afghanistan in President Reagan's second 
term.
    Let me now briefly turn to Iraq and make four points.
    First, as the retaking of Ramadi shows, a more intense 
application of airpower and more aggressive use of U.S. combat 
advisers is also a good strategy in Iraq.
    Second, the key to a Sunni tribal uprising against ISIL or 
ISIS is decisive U.S. engagement. The key to sustaining that 
uprising is the devolution of political power in Iraq across 
sectarian lines.
    Third, we are in a competition with Iran for influence in 
Iraq. How sectarian identity, politics, and a post-war 
settlement will shape the future of Iraq and Syria remains to 
be determined, but our competition for influence with Iran is 
one we should seek to win.
    And then, fourth, more broadly to both Iraq and Syria, 
raids by special operations forces will contribute an important 
line of effort to our strategy, but to be effective the tempo 
of operations needs to dramatically increase. For this to 
happen, the Iraqi Government must approve an increase in the 
number of U.S. special operations personnel on its territory.
    Now turning to the global jihad, global jihad has 
metastasized, and time is not on our side, as Michael 
mentioned. Global jihadists cannot be contained. They must be 
defeated and continually disrupted while they are in the 
process of being defeated. Sanctuaries must be denied.
    There are three points I would like to make.
    First, disrupting and defeating the global jihadists in 
Syria and Iraq and beyond will require roughly the same ways--
precision air strikes exploited by indigenous ground forces led 
by U.S. advisers--and sufficient means. The global jihadists 
will not be defeated until the ungoverned space in which they 
operate is eliminated, their ideology is discredited, and 
stability is returned to the Middle East. This will require a 
significant long-term investment in capacity-building of 
indigenous forces, irregular as well as regular, and sustained 
U.S. engagement.
    Second, the Predator has been our most effective weapon in 
our campaign against the global jihadists, and the size of the 
Predator fleet will remain a critical limiting factor in the 
conduct of our campaigns.
    Third, intelligence is our first line of defense, and, 
accordingly, investments in this area should have top priority.
    I would like to conclude by saying a few words about U.S. 
strategy for Iran and the need to reassure our allies. Iran 
remains on the offensive in its quest for regional hegemony, 
and our Gulf Arab allies feel increasingly under siege as they 
confront a multi-front war with Sunni radicals and Iran and are 
increasingly estranged from us. Further estrangement would pose 
a serious challenge to our campaign against the global 
jihadists and will result in our allies becoming more 
vulnerable to Iranian and radical Islamic aggression. 
Reassuring our Gulf Arab allies, strengthening our fraying 
Arab-Turkish-Kurdish coalition, and containing Iranian 
expansion are thus critical to our broader efforts in the 
Middle East.
    Thank you for the opportunity to appear before you today. I 
look forward to your questions.
    [The prepared statement of Mr. Vickers can be found in the 
Appendix on page 59.]
    The Chairman. Thank you.
    Ambassador Ford.

    STATEMENT OF ROBERT S. FORD, FORMER AMBASSADOR TO SYRIA

    Ambassador Ford. Mr. Chairman, thank you very much for the 
invitation to address you and the honorable members of the 
committee today. It gave me an excuse to come down from the 
cold winter up in northern New England.
    I would like to in my remarks speak, above all, about the 
politics that is underway in Iraq and in Syria. I am going to 
avoid the strict military discussion because, to me, the 
Islamic State is more than the sum of its fighters. It is 
actually, as Mike Morell was saying, it is a quasi-state. But 
it builds support, it recruits, it replaces fighters who are 
killed, it even trains little children.
    And so, confronting something like that, we need to think 
about what is a sustainable solution over the long term. And I 
am going to therefore talk about resources, and I am going to 
talk about the politics of national reconciliation.
    First, Iraq. I visited Iraq a couple of months ago. It was 
my first time there on the ground in 5 years. I worked in Iraq 
for 5 years with the American Embassy and before that with the 
Coalition Provisional Authority.
    My sense is that in Iraq on the military side there is 
progress, but there are two big challenges.
    First, on the resource side, both the Iraqi Government in 
Baghdad and the Kurdish regional government in Irbil, both are 
heavily dependent on oil and oil sales. And low oil prices are 
really crunching their ability to mobilize resources in the 
fight against the Islamic State.
    It was very noticeable to me that the Kurdish leadership, 
whom I have known since 2004, was genuinely concerned about 
their budget abilities to sustain the fight against Islamic 
State. Some of their Peshmerga fighters had not been paid for 3 
months. But even in Baghdad, the authorities were concerned 
about the resources.
    Second issue on Iraq: the politics of national 
reconciliation. Mike Vickers just mentioned the importance of 
devolution and decentralization. I certainly agree with that, 
and I am hopeful on that, because the Sunni Arab leaders, 
again, whom I have known since 2004, have really come around 
180 degrees. They used to be in favor of a tight, strong 
central government, and now they are arguing for devolution of 
power.
    That is what the Shia and the Kurds always wanted 10 years 
ago. For the first time, I have actually seen the Sunnis, the 
Shia, and the Kurds in Iraq all talking about, sort of, the 
same system of government. That is new, and that is hopeful.
    But, at the same time, as events in Diyala, northeast of 
Baghdad, yesterday showed, there is serious sectarian tension. 
The Islamic State yesterday exploded several car bombs in the 
weary city of Baqubah, and there was immediately concern among 
the local Sunni Arab population that Shia irregular, Shia 
militia, would retaliate. There was actually a fear that they 
would attack Sunni Arab mosques.
    In order to mobilize Sunni Arabs to contain the Islamic 
State, there must be efforts at national reconciliation. And 
this is important because we don't want the Islamic State to be 
put down militarily and then revive, as happened between 2011 
and 2013. I really don't want to see an Islamic State version 
2.0.
    It is important for the Americans, therefore, to maintain 
pressure on the Shia militia problem in Iraq. There are Iraqis, 
such as Prime Minister Abadi, Ayatollah Sistani, a superb 
religious leader in the Shia community, people like, on the 
Sunni side, Speaker Jabouri, who are all working for national 
reconciliation.
    And so, in Iraq, we need to help mobilize resources for 
both the central authorities in Iraq, Baghdad, for the Kurdish 
regional government in Irbil, and we have to be engaged on the 
national reconciliation, working with the gentlemen I pointed 
out.
    On the Syrian side, Mr. Chairman, I am much less upbeat, 
much less optimistic. There has been some progress on the 
ground in northeastern Syria, but that has been led by Syrian 
Kurds, who have a separate political agenda. And their 
political agenda is, first, autonomy, and second, fight the 
Islamic State. Make sure we all understand that: first, 
autonomy; second, fight the Islamic State.
    Because their first priority is autonomy, in that 
heterogeneous area of northern Syria, these Syrian Kurds have 
already stirred substantial resentment among local Arabs. I 
would note that Human Rights Watch and Amnesty International 
have both issued reports accusing the Syrian Kurdish militia, 
the ones we are helping--they have accused them of ethnic 
cleansing and war crimes against the local Arab communities. 
That does not help national reconciliation. That does not help 
build local Sunni indigenous forces to contain the Islamic 
State. We don't need to help the Islamic State recruit.
    As Michael Vickers just noted, the only way really to 
generate more indigenous forces is to help the Syrian 
opposition and to see the removal of Bashar al-Assad at some 
point and the creation of a new national unity government. The 
sooner that can be done in Syria, the better. Only a new 
national unity government in Syria is going to be able to 
mobilize enough Syrians to fight and destroy the Islamic State.
    In both countries, in both Iraq and Syria, as territory is 
cleared of the Islamic State, local authorities who are trying 
to keep the electricity going, trying to keep hospitals 
operating, trying to keep the water going, are going to need 
help. The Islamic State operated these things. As Mike Morell 
just said, it acts as a state. When it is gone, services must 
be contained.
    That will be a job for the U.S. State Department, its 
people in Turkey and in Jordan, and for the U.S. Agency for 
International Development. They will need resources to do that, 
and they are going to have to be able to move around despite 
the security risks.
    Finally, if I may, one last word about North Africa. I 
served in Algeria as Ambassador, and I was also in Algeria in 
the mid-nineties during a horrible civil war there, where the 
Algerian Government had to confront a very nasty sort of pre-Al 
Qaeda insurgency.
    I am watching what is happening in Libya with concern. Even 
if the Islamic State, which is capturing oil facilities, even 
if it can't sell oil the way the Islamic State affiliates in 
Iraq and Syria have done, they may be able to use the oil 
assets they have locally to generate revenues. They are an 
administration. They have an increasing ability to project 
military power out of their base at Sirte, and they have a safe 
haven space to organize, plan, and recruit. Just as the attack 
in Paris was organized in Syria, so they have space in Libya to 
do the same kind of thing.
    It will be important, therefore, Mr. Chairman, to help a 
new Libyan Government and to help it control territory. And we 
will need to be ready to do that.
    Thank you very much again for the invitation to address the 
committee, and I look forward to your questions.
    [The prepared statement of Mr. Ford can be found in the 
Appendix on page 67.]
    The Chairman. Thank you all. Much to think about and much 
to follow up on.
    All committee members received notice that Mr. Smith and I 
agreed for the purpose of this hearing that, after the chairman 
and ranking member's questions, that members would be 
recognized in reverse order of seniority if you were here at 
the time of the gavel. Then we will proceed according to when 
you entered the room, as we normally do.
    To get that started, I am going to yield my 5 minutes to 
the gentleman from New Jersey, Mr. MacArthur.
    Mr. MacArthur. Thank you, Mr. Chairman.
    And I thank all three of you for being here. It was very 
helpful, listening to you.
    Mr. Morell, you painted a bleak and, I think, compelling 
picture of why ISIS poses a real threat, a strategic threat and 
a lethal threat, to the United States.
    And if I heard you correctly, you mentioned three things: 
One, they are capable of completing indirect and direct attacks 
against us and our interests, and if we don't stop them, they 
will succeed. Two, they are really a state in every sense that 
matters. And I would add on that that I think it might serve us 
better if we recognize that. We call them a quasi-state, but 
they really are a repressive or an illegitimate state but they 
are a state, and they act as one. And then, thirdly, you said 
they have a growing network that will spread their influence.
    It seems that the bottom of all of that is their control of 
land and people and resources. And so I wanted to ask you if 
you believe that we are doing everything necessary to get them 
out of that territory. And if not, briefly, what would you 
suggest that we add to what we are doing?
    Mr. Morell. So I agree with both of my colleagues here that 
we need to do more. I also believe very much what Robert said, 
that we really can't have military success--and there is a lot 
we need to do on the military side, but we really can't have 
military success without political solutions in both places. 
That has to come first.
    Airpower alone is not going to win it. We need to do more 
than airpower. You know, Mike can talk about that. There is 
more we can do with airpower, but airpower is not going to win 
this thing alone. We need a ground force. There is a strategy 
in Iraq to get that ground force. Ramadi showed that that 
strategy has potential. There is no ground force on the Syrian 
side that carries the same kind of potential as the Iraqi 
military carries.
    And, you know, we can do more, I think, with the moderate 
opposition, but at the end of the day, I think Assad has to go. 
And we have to take Syrian military security resources, as 
degraded as they have become, and turn them into a force that 
the international community supports in taking on ISIS.
    So I think we need to be more aggressive on the military 
side to put pressure on both ISIS and Assad in the short term 
while we get very, very aggressive on the political side, on 
the diplomatic side, to force political solutions in both 
places.
    Mr. MacArthur. Let me segue on that comment, because Dr. 
Vickers also made it clear that he sees a Syria-first strategy 
in which Assad's departure is at the center of it, and now you 
have said the same.
    And maybe I will start with you, Ambassador, because you 
have spent a good deal of time there. What follows Assad? And 
while I agree with you he is a bad actor that ideally would not 
be there, sometimes the devil you know is better than the devil 
you don't know. And what potentially follows Assad in that 
region, in that state?
    Ambassador Ford. Very briefly, we don't know exactly who 
would follow Bashar al-Assad. It has to be a negotiation. I 
think, had we asked the question who would follow Saddam 
Hussein, we wouldn't have known the answer to that in 2003, 
obviously. So it will also be the subject of a negotiation 
among Syrians.
    And I suspect, frankly, it will be a very wobbly initial 
national government, if the Syrians can ever have a serious 
negotiation. And that is a big ``if,'' Congressman. Therefore, 
a wobbly government like that, just as the wobbly government in 
Iraq in 2004, 2005, 2006, 2007, 2008, 2009 needed help, that 
will be the case also in Syria.
    I do not believe that, if Assad goes, only the Islamic 
State takes over. I think that is wrong on multiple levels and 
is indicative of a sense that there is no hope, whereas, 
actually, there is quite a bit of hope. As big as the Islamic 
State is in Syria, it is actually not the biggest force 
fighting Assad right now. The other elements of the opposition 
are actually much bigger than the Islamic State.
    Mr. MacArthur. I thank you.
    Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Gentlemen, ISIL has successfully expanded its influence and 
has received oaths of allegiance from groups in Afghanistan and 
Pakistan, Yemen, Nigeria, Libya, Egypt, Tunisia, France, 
Belgium, the U.S., and so many others.
    I recently read an article where a supposed expert says 
that the goal of ISIS is the establishment of sharia law 
through Muslim lands, but they have actually created a 
caliphate and are trying to establish a government, with the 
caliph and they have taxation, garbage services, et cetera, et 
cetera--a government, if you will.
    So my first question is, where or what is ISIL's center of 
gravity? Where should we be focusing our time and resources? 
That is my first question.
    The second one is, if you can talk a little about the 
worries or what we need to do about the Saudi-Iran Government 
issue going on.
    Thank you.
    Dr. Vickers. So, first, their center of gravity is really 
their capital in Raqqah. That is where they administer their 
caliphate from. They draw a lot of power from Iraq's second-
largest city, in Mosul, where they seized a lot of assets. 
Generally, the Sunni areas of western and northern Iraq and 
northeastern Syria is where they comprise, but Raqqah is really 
the center of gravity. And that is why I advocated a Syria-
first strategy that really tries to take that on sooner rather 
than later.
    The Iranian-Saudi competition is something that dates back 
to 1979. It has ebbed and flowed; it has intensified very 
dramatically. Probably even predates that, with the Shah, but 
certainly it intensified in 1979.
    And, you know, from the Gulf Arab point of view, and 
particularly the Saudis, the Iranians, you know, have allies 
all around them, with Lebanese Hezbollah, with Syria, with 
their influence with the Government in Baghdad, and then in 
Yemen. And then they see a threat to their kingdom, as well. 
And so they see themselves fighting a multi-front war in this 
area and also against Sunni Islamic radicals.
    Robert, I don't know if you want to add anything.
    Ambassador Ford. I think Michael is exactly right, 
Congresswoman. Raqqah in Syria, the capital, and Mosul are the 
two centers of gravity physically, geographically. But the 
Islamic State's fighters have a saying, which is--I will 
translate it from Arabic. It is, ``We are surviving, and we are 
expanding.''
    If they lose Raqqah and if they lose Mosul, they will still 
be there. Their predecessor organization, the mother 
organization, if you will, basically operated almost 
underground for a long time, for several years, in Iraq before 
it popped back out in both Syria and Iraq. And they have 
experience doing that, Congresswoman, and they will do it 
again.
    That is why I was saying it is important to have indigenous 
forces who are staying and will keep it under control and grind 
it out of its holes little by little by little. I think 
grinding it out of its holes will take much longer than 
retaking Ramadi or retaking Raqqah or retaking Mosul.
    I worry, frankly, that we do not yet have enough people, 
friendly indigenous fighters, in places like Ramadi, Anbar 
province, Diyala province to do that. I think right now the 
numbers that the administration is talking about are 30,000 
Iraqis. I am not sure if 30,000 is going to be enough to secure 
that Syrian border and control those towns.
    Mr. Morell. Ma'am, I think you hit on something really 
important at the beginning of your question when you talked 
about what are these guys after, what do they want. And as an 
intelligence officer, I think it is really important to 
understand your enemy.
    And what these guys are all about is they believe that 
Allah has chosen them personally to prepare the world for the 
coming of the Mahdi. And that preparation involves giving 
people the choice between becoming a Muslim, a good Muslim in 
their definition, or being killed. And then, once all of that 
work has been done--that is the establishment of the 
caliphate--then the Mahdi comes and the end of the world 
happens and God sorts out the good from the bad.
    That is what they believe. They believe that based on, you 
know, not very good readings of the Koran, not very 
particularly good interpretations of what it is they are 
looking at. It is exactly--exactly--what the Al Qaeda 
leadership believed, exactly the same, about what their 
ultimate goals are and their ultimate objectives. And we need 
to understand that.
    Ms. Sanchez. Thank you, Mr. Chairman.
    In the interest of time--I mean, I just think we really 
have to get to what it is they want before we come up with a 
strategy of how--we can no longer contain them. If what you are 
saying is true, they go down a hole and they wait.
    Now, something that someone had said was, now that they 
have established the caliphate, they have the caliph; this is 
really the lynchpin for them to be able to do this sharia law 
and everything else that comes with it, or, as you said, maybe 
the coming.
    So I think, as members, we need to really begin to 
understand what moves before we can understand that not just 
bombs will get rid of this.
    Thank you. I yield back.
    Ambassador Ford. Congresswoman, can I add a point?
    Ms. Sanchez. Yes.
    Ambassador Ford. I think this is important, since you want 
to talk about what they want.
    The establishment of the caliphate was very controversial 
within jihadi circles, very controversial. Why? Because many 
jihadi clerics, including Al Qaeda, said you can't declare a 
caliphate if you can't hold territory and apply sharia law. You 
can't declare a caliphate; it is illegitimate. That is still 
the position of Al Qaeda today with respect to the Islamic 
State.
    Holding territory, therefore, taking it back from them, 
taking back Raqqah, taking back Mosul, taking back the other 
cities, matters. It will put a big dent in their recruitment 
because they will lose a great deal of the legitimacy that they 
have enjoyed within jihadi circles. They will still go 
underground, and they will still have to be routed out, but it 
will be easier if they can't recruit as well.
    Ms. Sanchez. Thank you for that enlightenment. I mean, I 
have really been one of those who has been trying to understand 
what is the root of this.
    Thank you, Mr. Chairman.
    The Chairman. Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your service and your testimony 
today.
    In my time in the military, one of the things that was most 
concerning as far as threat was the combination of a terrorist 
organization with weapons of mass destruction [WMD].
    I serve on Homeland Security. I am the chairwoman of the 
Subcommittee on Emergency Preparedness, Response, and 
Communication. We have done some hearings on the threat of 
chemical and biological terrorism. And if you look at what ISIS 
has said, you know, they have stated in open source that they 
want to use these types of weapons and export their terror on 
us. Obviously, that could potentially be a game changer, not 
just small-scale physical attacks, but then actually using 
chemical, biological, radiological, or nuclear capabilities.
    And what we have seen with ISIS, as you know, is that they 
are not just trying to acquire them--and there are reports they 
have used them on the battlefield--but they try and recruit 
individuals with the expertise so that they can create those 
capabilities themselves, not from scratch but just by importing 
those with the experience.
    So I was wondering if you could comment, Mr. Morell, on the 
WMD threat with ISIS and your concerns about that and what to 
do about that.
    Mr. Morell. So I share your concerns.
    They have made two things very clear publicly in documents 
that have come out. One is that if they acquired these weapons 
that they would use them, and they wouldn't care that the vast 
majority of those killed were civilians. And they have also 
provided a religious justification very similar to Al Qaeda's--
in fact, I think it was identical to Al Qaeda's--justification 
for using such weapons.
    I have no doubt that they are pursuing such weapons. I do 
not know how far along they are. I don't have access to 
intelligence anymore.
    But one thing--you know, the safe haven here is so 
important for many, many reasons, and one of the reasons is 
exactly this--right?--is, when you have safe haven, it gives 
you opportunities to work on weapons like this. Al Qaeda made 
significant advances in anthrax research because they had a 
safe haven.
    And so I am concerned that as long as they have a safe 
haven they will have the space. And because they are a quasi-
state they can use the human resources within that state--
right?--as they pursue these things.
    So I don't know where it stands at the moment, but I am 
deeply concerned about it.
    Ms. McSally. Great. Thank you.
    I have been extremely critical about the military campaign 
against ISIS. The caliphate was declared 19 months ago. This 
so-called air campaign has been going on. I have some good 
friends that are still at the Pentagon and are involved in it, 
and they sarcastically call it ``Operation Shade,'' which means 
they literally have fighters stacked up on top of each other 
and they are providing mostly shade to those on the ground as 
opposed to using airpower for all it brings to the fight.
    It has been very two-dimensional. It has been very 
sequential, very reactive, as opposed to using airpower for all 
it brings to the fight, by identifying those centers of 
gravity, which you mentioned, and taking them out and 
unleashing airpower in order to destroy their capabilities. And 
it has been very much a gradual approach, as you guys noted in 
your testimony.
    When we had the Secretary of Defense and the Chairman here 
a couple months ago, they stated they had just started talking 
to the State Department single-digit months ago to look at a 
comprehensive strategy. They just started looking at the oil 
infrastructure and figuring out how to hit it, when we know it 
has been $1 million, minimum, a day.
    What is going on here? I mean, we know from, again, our 
intelligence understanding it is not that difficult to figure 
out where their resources are coming from and go after them 
using airpower.
    And I just would like definitely, Dr. Vickers, and really 
any of your comments on what needs to change from the military 
strategy, because we do need to destroy their capabilities. 
There is a political solution, obviously, but we have to 
destroy their capabilities.
    Dr. Vickers. So to put some numbers on it, if you compare--
I think the best air campaign analogy to what we face in Iraq 
and Syria is Afghanistan, 2001-2002. And the number of strike 
sorties that we did a day in Afghanistan in 2001 is a factor of 
about eight above what we have done in Iraq and Syria. And 
then, furthermore, two-thirds of coalition efforts have really 
been against Iraq, not against Syria, where the more dangerous 
threat has existed.
    So I think those are the two fundamental problems with the 
air campaign, that it has essentially been a fraction of what 
it should be in mass. And, you know, as we have shown since 
really 1990 but certainly through--when you start putting 
precision weapons on bombers, you can combine mass without 
sacrificing precision.
    As Michael said, though, airpower alone is not enough, and 
Ambassador Ford as well. We have to have an indigenous ground 
force to exploit the effects. And, certainly, you know, if you 
want to deny a sanctuary sooner rather than later, just like in 
2001, having some ground force that can exploit the effects of 
airpower makes a big difference. And there, U.S. advisers 
matter.
    Ms. McSally. Great. Thanks.
    And my time has expired, so if you need to elaborate, maybe 
when another question comes up. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Moulton.
    Mr. Moulton. Thank you, Mr. Chairman.
    Gentlemen, thank you very much for your long years of 
service. I regret that you still have so many opportunities for 
your service continuing now.
    I feel somewhat the same way. I had a much shorter period 
of service in the Marines, but when I was a part of the surge 
in Iraq, I very much felt like I was a part of finishing the 
job. We had messed it up for years, we got it right, and then I 
went home. And now I am back here watching us have to return to 
Iraq just 5 years after we left.
    And so, while we can debate--and there is much to discuss--
about the military strategy to defeat ISIS in the short term, 
the focus of my questions today is about how we ensure we don't 
find ourselves continually going back and having to apply 
military power against ISIS or the next ISIS successor in the 
long term.
    And we have heard many people testify before this committee 
about the importance of a long-term political strategy. General 
Petraeus joined us last week and emphasized that. General 
Dunford, as Representative McSally pointed out, talked about 
the importance of State Department coordination and how it 
hasn't been happening for a long time.
    So, to begin, I just wanted to see if we are on the same 
page with a few high-level points.
    Is there any one of you who disagrees with, from the Iraq 
perspective, the need to empower the central Iraqi Government, 
that that is the best strategy we have on the table right now 
for a long-term political solution in Iraq?
    Ambassador Ford. I think the Iraq Central Government Prime 
Minister Abadi is someone who believes in national 
reconciliation, and I think he has a political vision. But I 
worry when you say ``empower,'' Congressman, because I think so 
much of the sustainable solution--you were in Anbar--so much of 
the sustainable solution will not come just from Baghdad but 
will come from local Sunni communities who feel that they have 
a stake----
    Mr. Moulton. Fair enough.
    Mr. Ford [continuing]. In Iraq.
    Mr. Moulton. So, unquestionably, more federalism. But we 
are not talking about dividing up the state at this point.
    Ambassador Ford. No, I hope not.
    Mr. Moulton. Okay.
    Do we all agree that Assad needs to go in Syria?
    Ambassador Ford. Yes.
    Mr. Moulton. Is there any disagreement with that?
    Okay.
    And I was struck, Ambassador Ford, by your point about the 
Kurds. I think it is very tempting from Americans to say, let's 
just get on board with the Kurds because they are great allies, 
they are strong fighters, and they share many of our values. 
But that is not enough. We have to empower the Sunnis, as well.
    Is there any disagreement with that?
    Okay.
    And then taking this all together, what type of time 
commitment are we talking about? So the American people 
understand what this will take, diplomatically and politically, 
after we leave and perhaps with a residual military presence so 
we don't find ourselves in the situation where, after we 
militarily defeat ISIS, we have to send young troops back to 
fight them or their successor again in the next 5 or 10 years. 
Are we talking about a Germany and Japan type of commitment? 
What will this take?
    Mr. Morell, perhaps we could start with you.
    Mr. Morell. So I think it is a long-term commitment. I 
can't give you, you know, a number of years, but I think it is 
a long-term commitment.
    I think the departure of U.S. forces from Iraq in 2011 is a 
big part of the story here of why we are where we are. I am not 
casting blame in any direction here. I am just saying I think 
it is a big part of why we are sitting here today.
    Mr. Moulton. General Dunford made that point as well, that 
if we had stayed more integrated in Iraqi politics as well, we 
wouldn't have this great vacuum that has allowed ISIS to take 
over.
    Mr. Morell. You know, I would point out that we needed to 
be in South Korea for a very, very, very long time to maintain 
stability on the peninsula. So I think you are looking at, you 
know, 10, 15, 20 years of U.S. commitment to this region in a 
very, very significant way.
    Mr. Moulton. Dr. Vickers, if I could just go to you, and I 
just have a minute left. Based on your experience with past 
conflicts, what kind of additional political support can we be 
providing in Iraq and Syria?
    When we say there needs to be more political/diplomatic 
support, there needs to be that kind of strategy, what kinds of 
resources has the U.S. used in past conflicts that we are not 
using today to ensure longer-term success?
    Dr. Vickers. Well, this is honestly an area where we have 
struggled since 9/11. You know, the Korea, Germany, Japan 
models are all good ones, but very, very different strategic 
context.
    You know, as Michael mentioned, shifting to a security 
assistance model, an embassy-based presence where we lost our 
political influence, but, also, frankly, the Iraqis' work in 
progress and working out power-sharing I think has got us to 
where we are.
    I think we require a long-term political and security 
commitment but not necessarily in large numbers, just in terms 
of enablers and advisers. Because, as Ambassador Ford said, 
even if you get a national unity government in Syria, you know, 
it is going to take time to make that government strong.
    Mr. Moulton. Thank you.
    I am out of time, but, gentlemen, if you would be willing 
to follow up----
    Dr. Vickers. Sure.
    Mr. Moulton [continuing]. With details of what that more 
robust political strategy might look like, I think it would be 
helpful for us if you could do that in written testimony.
    [The information referred to was not available at the time 
of printing.]
    Mr. Moulton. Thank you, Mr. Chairman.
    The Chairman. Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman.
    And thank you, gentlemen, for your thoughtful testimony.
    Earlier on in this Congress, last March, we had a hearing 
with Ms. Wormuth, the Under Secretary of Defense for Policy, 
and I asked her a question related to what is the 
administration's policy toward Syria. And it was quite clear in 
her testimony that there was no coherent strategy toward Syria, 
and I think that is clearly still the case today.
    I agree with your assessment that we must have a Syria-
first approach to much of the regional instability in the 
Middle East, but one significant player that has not been 
brought up today is the role of Russia.
    I would love to get your feedback on the fact that the 
vacuum that the United States has left has allowed Russia to 
fill that vacuum, propping up the Assad regime, and how that 
will play into the geopolitics of phasing Assad out.
    Mr. Morell. So I will start.
    You know, I think that Vladimir Putin's objective, main 
objective--there are a lot of different objectives in what he 
did, but his main objective was to prop up Assad, who, when 
Putin made his move, Assad was at his weakest point since the 
fall of 2012. And Putin believes that he needs to prop up Assad 
because Putin is concerned that, if Assad goes, there will be 
chaos in Syria and there will be more running room for ISIS.
    And like Robert, I don't necessarily believe that. Right? 
It depends on what comes next. Right? So what we need is a 
transition from Assad to a government that all Syrians can 
agree with. That is the transition we need. And if that 
happens, then Putin is wrong. Then Assad going is not a bad 
thing; Assad going is a good thing.
    And what Putin has done is now made that potential 
transition much more difficult. Because Assad was on the 
verge--right?--of falling, essentially, and allowing us to get 
to that new government, right? And now Russia has made that so 
much more difficult. And what he has done is also now made 
Russia a player at the table, right? So Russia is now going to 
get to determine how that negotiation goes because of what he 
did.
    I will let others comment, as well.
    Dr. Vickers. Yeah, I agree with all that. And I don't think 
our interests are very well aligned with Russia. There is some 
commonality, but I don't think it is as much as some have said.
    And I don't think we should be deterred, you know, from our 
objectives in Syria from the relatively modest Russian 
intervention. If you look at the few thousand troops and 36 
aircraft and the number of strike sorties, you know, it is not 
the world's biggest combat power there.
    And so there is a lot of Syria they can't control, and, you 
know, our policy will drive--you know, having had experience 
with the Russians in Afghanistan with a much, much bigger 
force, this is pretty small by comparison.
    Ms. Stefanik. Ambassador Ford.
    Ambassador Ford. We need to get to peace talks. And getting 
to peace talks, by itself, isn't the answer. That is just a 
venue. What really is needed is deep concessions, deep 
compromises on the two sides to the conflict, Assad's 
government and its opposition.
    I think the Russian intervention has made it infinitely 
harder to get the concessions needed from the Assad side of the 
table, which will impede getting to a new national unity 
government. And so, therefore, I don't see what the Russians 
have done so far as very positive.
    If I thought the Russians were going to use their new and 
improved leverage against Assad in the peace talks, then I 
would feel better. But the fact that they are using cluster 
bombs, the fact that they are targeting civilian areas 
regularly, the fact that they are targeting aid convoys, 
humanitarian aid convoys regularly, this does not look like a 
Russian policy designed to extract concessions from Bashar al-
Assad to advance a peace process.
    Ms. Stefanik. Great.
    And in my last 39 seconds, I want to shift gears here. One 
of the proposals that has been introduced by some of the 
leaders, military leaders--General Petraeus is one--do you 
think an additional four-star commander headquarters under 
CENTCOM [U.S. Central Command] is necessary for effective 
command and control of Operation Inherent Resolve?
    Dr. Vickers. Well, we have a unified three-star now, with 
General Sean McFarland, who is a very, very capable officer, 
who as a colonel led the operations in Ramadi in 2007.
    You know, we don't go to war anymore with our combatant 
commands; we form a task force underneath them. So whether that 
is three-star or four-star is really a function of bureaucratic 
politics and the weight in the building--and I guess I am more 
agnostic--than picking the right three- or four-star that will 
get us to victory.
    Ms. Stefanik. Any other feedback?
    Thanks.
    I yield back.
    The Chairman. Mr. Walz.
    Mr. Walz. Thank you, Chairman.
    And, again, I thank you gentlemen for being here.
    I would like to build a little bit on where Mr. Moulton was 
going on this broader strategy. And I think the timeline of 
this--I had the opportunity to be in Damascus in 2009, and I 
know Ambassador Ford early on challenged the Assad regime, at 
great personal risk.
    And I thank you for that. You were articulating this 
clearly.
    In 2013, when President Obama made the now-infamous ``red 
line'' statement, I held periodic town halls or whatever, and 
on that one hundreds of people showed up. And I had never seen 
anything like this, the involvement of getting into Syria to 
take Assad out because what he was doing with chemical weapons 
was unacceptable. And in that group of people that showed up, 
all 100 percent of them were opposed to any intervention.
    Trust me, I have held them on health care--it does not 
quite work that way--and other things. It was an amazing thing, 
that the American public at that point, weary of war, weary of 
this, not committed to the strategy, didn't know what to say.
    And I bring this up because I think where Mr. Moulton was 
getting at--and, Mr. Morell, you answered it--you are talking 
decades, and I think you are absolutely right. I think your 
assessment is correct, and I agree with that. What I think we 
need to understand here is that there are multiple 
administrations. Some you will like, some you will dislike.
    And our commitment of that overarching strategy of smart 
power, what are the things we can put in place that can start 
to ensure that that transition is more coherent and more 
stable? Because I worry about that, because if you wait around 
here long enough, you will blame somebody else for where this 
happened.
    My concern is that we get the strategy in place, and if it 
is 25 years, that needs to be clearly articulated to the 
American public with a strategy that they can get behind. 
Because if hundreds of people show up in a small grocery store 
in Minnesota and all say no, it is very difficult to make this 
work.
    So I would be interested to hear your thoughts on 
implementation of smart power and broader thinking, how do the 
Chinese factor into this, some of the things that we should be 
thinking about. Whoever wants to take that one.
    Mr. Morell. I will start. It is a great question.
    You know, I believe--and I am going to broaden out here 
from just ISIS in Iraq and Syria to the extremist problem in 
general--since 9/11, the United States of America has done a 
remarkable job at protecting the homeland from another attack. 
We have done a remarkable job, up to now with ISIS I would say, 
disrupting, degrading terrorist organizations so that they 
can't conduct an attack here. We have put intelligence 
resources on it in a substantial way, military resources on it 
in a substantial way. If you are plotting an attack against the 
United States, we are going to find you and we are going to do 
something about it.
    What we have done a horrible job at, an absolutely horrible 
job, is dealing with the fundamental roots of the problem.
    Mr. Walz. Yeah.
    Mr. Morell. You know, for every thousand hours that I sat 
in the Sit [Situation] Room talking about what to do about 
terrorists who already exist, I spent maybe an hour talking 
about how do we prevent the creation of terrorists in the first 
place. And I am just making up these numbers, but for every $1 
million that the United States of America spends on dealing 
with terrorists that already exist, maybe we spend a dollar on 
how do we prevent the creation of terrorists in the first 
place.
    And it is not something the United States can do on its 
own. You know, we need the leadership of Muslim countries, we 
need clerics in Muslim countries, we need teachers in Muslim 
countries, and parents in Muslim countries.
    There needs to be a big strategy to get our arms around 
this. It is economic, it is political, it is social, and it is 
religious. We and our allies need a strategy to deal with the 
radicalization problem, or, as quickly as we deal with one 
group, another group is going to pop up somewhere and we are 
going to have a problem somewhere else.
    So I would say that the next administration really needs to 
take a really hard look at how we deal with radicalization in 
the first place.
    Dr. Vickers. And I would just enlarge the problem a bit 
more and say, you know, we are at a real turning point in our 
Nation's history if you look at the post-9/11 era and the Cold 
War, in the sense that we have three challenges in three 
critical regions--rise of China, resurging Russia, and then a 
Middle East in chaos--that are not amenable to short-term 
solutions in either case. You know, like the Cold War, you are 
going to be at these things for decades.
    And so you have to come up with not only a strategy that 
allows you to contain the problem but eventually resolve it, 
but that is sustainable across administrations, much as our 
Cold War strategy was. I liken the current period that we are 
heading into now as like 1947 with new actors.
    Ambassador Ford. Congressman, I take to heart what you said 
about the reticence of the American public to get involved in 
2013. I remember that vividly. Now, however, we are flying 
daily combat missions in Syria and Iraq, so it is funny how 
things work out.
    I have a couple of thoughts on the long term. I think the 
long term, especially in Syria, is going to take decades. Syria 
is now a completely failed state, and it is basically--what is 
left of the government is propped up by foreign militia, mainly 
out of Iraq, organized by Iran as well as Lebanese Hezbollah. 
Rebuilding all of that is going to take years and years.
    And it should not be and it cannot be something that only 
Americans do. I think part of a political strategy is to get an 
agreement among all of the regional states, as well as Russia 
and China, to stop promoting individual clients that in turn 
then degrade the ability of the central state to operate. And 
we have seen that historically in Iraq. We have seen it in 
Lebanon. We certainly see it in Syria. We see it in Libya, 
where different regional countries are taking different sides. 
That is one part.
    Second part is, reconstruction should not be an American 
responsibility solely, but I don't think any country can lead 
an international effort to rebuild in places like Syria or 
Libya better than the United States. We have the diplomatic 
tact. But that means bringing a lot of regional states to the 
table. It means bringing organizations like the World Bank to 
the table, as well.
    And then, finally, as I mentioned before, there has to be 
an effort to get local services running. This was always a big 
problem in Iraq, as I am sure Congressman Moulton will 
remember, getting things like electricity and water. It is not 
that USAID [U.S. Agency for International Development] has to 
go in and do all of that, but there may be areas where we can 
help local people. Syria has a lot of engineers, Syria has a 
lot of planners, but they may be able to use help in some of 
the planning. And so that is a third thing for the United 
States to do.
    Mr. Walz. Thank you, Mr. Chairman, for the time.
    The Chairman. Thank you.
    Mr. Zinke.
    Mr. Zinke. Thank you, Mr. Chairman.
    I do agree with your assessment of ISIS, but I also don't 
think Al Qaeda is out of the game. And my fear is, being number 
two, Al Qaeda will strike in a larger way because they are in a 
battle for influence.
    But I would like to turn the attention to Iran. Since 
Congress failed to stop the President's Iranian deal, we have 
watched Iran launch two ICBMs [intercontinental ballistic 
missiles], we have watched them deploy missile strikes in Camp 
Liberty, we have watched them embolden and, to a degree, 
influence the Shia militia.
    To your point about reconciliation between the Sunnis and 
the Shia, as Iranian influence begins to be emboldened, I don't 
see how a Sunni reconciliation can occur without checking Iran.
    And there are reports, and I believe they are valid, as the 
Shia militia went through its anti-Sunni rallying cries and 
battle cries. And my fear in Ramadi--although I think that we 
were wise to put the Iraqi military in charge of that operation 
rather than the Shia militia--as that territory is gained, if 
the result is simply the Shia militia and a greater Iranian 
influence in the Anbar Province, I think that is perilous.
    How concerned are you about Iranian influence in Iraq and 
Syria?
    Mr. Morell. So I will go first here.
    You know, I am deeply concerned about Iran. The nuclear 
issue is not the only problem that we have with the Iranians. 
We have a long list of problems with the Iranians.
    Number one, they want to be the hegemonic power in the 
region. They want to call the shots. They want the influence. 
It is not incorrect to say that they want to reestablish the 
Persian Empire. And it is not just this government; it is not 
just this Supreme Leader. It goes way back in Iranian history. 
The Shah wanted to do it.
    So that is number one. That is not in our interest, in my 
view.
    Two, I think it is fair to say--Michael will correct me 
here if I am wrong. I think it is fair to say that Iran is the 
only country on the planet that still, itself, conducts 
terrorism as a tool of statecraft against its neighbors, around 
the world. The IRGC [Islamic Revolutionary Guards Corps] Quds 
Force conducts terrorist acts. That is not a good thing.
    Three, Iran supports international terrorist groups. 
Hezbollah could not exist without the support it gets from 
Iran. And just a reminder: Prior to 9/11, Hezbollah killed more 
Americans than any other terrorist group on the planet.
    Four, it is Iranian state policy--it is Iranian state 
policy for the state of Israel to be the wiped off the face of 
the planet. And if you don't believe me, just listen to the 
Supreme Leader; he says it all the time. He actually has a 9- 
or 10-point plan to destroy Israel. You can Google it, 
``Supreme Leader, Iran, Israel, nine-point plan,'' and you will 
see it. He claims it is nonviolent. I don't know how you remove 
a country from the planet without violence, however.
    And then you put the nuclear program on top of all that.
    So this is, I believe, a strategic threat to the region and 
a strategic threat to the United States of America.
    Mr. Zinke. Do you see any indication that Iran has changed 
their tune?
    Mr. Morell. No, not at all. And I think the proper response 
is that we push back on malign behavior in the region by Iran. 
We have to show them that we are going to stand up to them. 
That will send them a very powerful message, and it will send 
our allies a very powerful message. Right now, our allies think 
that they are all alone against their version of the Soviet 
Union. And that is not too strong a statement, Congressman.
    Mr. Zinke. Thank you.
    And really quick, because I am running out of time, a 
question directed to you, Mr. Ambassador, is--and thank you for 
being here--is that, talking to our allies, there seems to be a 
problem with trust. I would say that our allies don't trust us 
and our enemies don't fear us.
    But I do believe a solution, both political and a military 
solution, is called for, but part of the military solution 
cannot be just a U.S.-only force. It has to be made of--because 
this is a war between Islam as much as it is East and West.
    Are you concerned about the level of trust in our allies? 
Because I agree with your assessment, that only the U.S. can 
lead this successfully. And yet, how do we gain the trust back 
of our allies should we decide to bring a force in and allies--
a group of allies? And I think you know the members.
    Ambassador Ford. Congressman, I think it is possible that 
some of the states in the region, Gulf States, Jordanians and 
others, would be willing to insert ground forces into a place 
like Syria, but they are not going to do it without the 
blessing and even the support of the United States.
    Mr. Zinke. That is very clear.
    Ambassador Ford. And what the mission of that force would 
be would have to be defined. And I don't think it is the answer 
by itself. It might be one part of a longer list of things to 
be done. By itself, it is not enough.
    But in terms of your question about how do you rebuild 
trust, I think two things: Number one, the administration needs 
to show people in the Gulf, and, in particular, Saudi Arabia, 
but also countries like Kuwait, United Arab Emirates, Qatar, 
that we may disagree on a lot of things--human rights issues 
and other things, the influence of the Wahhabis in Saudi 
Arabia, where we have a deep disagreement--but, fundamentally, 
we stand for their security.
    In the tit-for-tat between Iran and Saudi Arabia, I have 
not heard the administration come out and say, ``We may 
disagree with the execution of Sheikh Nimr al-Nimr, but the 
stability and security of Saudi Arabia is a vital American 
national interest.'' I have not heard that said.
    Second, just on an operational level, I would actually like 
higher-level envoys to take that message out to the Gulf. I 
would like to see some people from Washington, and not just 
people in uniform, as important as they are to this, but I 
would also like to see high-level envoys from the Department of 
State and/or the White House go out and deliver that message so 
that you could begin to have a conversation, a really frank 
conversation, about what we are all trying to do in the region.
    Mr. Zinke. Thank you.
    Thank you. I yield back.
    The Chairman. Mr. Castro.
    Mr. Castro. Thank you, Chairman.
    And thank you, gentlemen, for your testimony.
    As you know, there was a suicide bomber who attacked 
Istanbul at about 10:15 a.m. Tuesday morning in Turkey. And 
because of that, I want to ask a few questions related to 
Turkey.
    And the first one is really a preface question. How 
effective do you believe or have you seen that Turkey has been 
to stem the unwanted flow of fighters and goods into and out of 
their country?
    Ambassador Ford. Congressman, it was more or less an open 
border in 2012 and 2013. The Turks have taken a lot of measures 
to tighten that border. It is very different from what it was 3 
years ago, 4 years ago.
    That said, that border is still not completely shut. There 
are lots of little goat paths and donkey trails that date back 
hundreds of years. Smugglers know them, and the Turks can know 
them. But it is a manpower-intensive operation, and the Turks 
need to assign enough manpower to do it.
    Mr. Castro. Secondly, Turkey recently decided to seal its 
border, create a buffer zone in northern Syria, and allow U.S. 
aircraft to use the Incirlik Air Base for bombing missions in 
Iraq and Syria.
    What additional role do you foresee Turkey having in the 
fight against ISIL?
    And I ask this question also because of the instability in 
the region and their recent tension with Russia over the downed 
jet.
    Dr. Vickers. Well, you mentioned the major contributions. 
You know, again, Turkish policy primarily puts the defeat of 
Assad ahead--or sees them intertwined, certainly, in a major 
way. And that is one area where we have had some disagreement.
    Ambassador Ford. Congressman, I think that one thing--two 
things the Turks can do.
    Number one, as I said, they can put more manpower down on 
that border and shut the last smuggling trail.
    The second thing that they can do is increase their 
assistance to Syrian rebel groups that are, themselves, 
fighting the Islamic State right now--for example, north of 
Aleppo, where there is quite a dogfight going on between the 
Islamic State on one side and moderate Syrian rebel forces, 
called the Marea Front, on the other side.
    The Americans could actually help the Turks in that effort 
by directing some of our air strikes against Islamic State in 
coordination with those Syrian rebels that the Turks are trying 
to help.
    Mr. Castro. And then let me ask you, I know there has been 
a lot of discussion about how we stop ISIS and other terrorist 
groups from recruiting folks, whether it is in the region or in 
Europe or the United States. I think everybody here would agree 
that terrorism has essentially become a franchise in the Middle 
East and North Africa and growing in other places in the world.
    And so, Mr. Morell, I think you mentioned that there were 
about 900 cases the FBI is investigating of folks who have been 
recruited towards terrorism by ISIS.
    You know, essentially, have you seen a difference in what 
Europe is doing to address that problem and what the United 
States is doing, or a difference between the United States and 
any other region of the world, with respect to the Internet 
specifically?
    Mr. Morell. Yeah, I don't know the answer to the question, 
Congressman. I don't know if the Europeans are doing something 
that we are not.
    I do know the problem is bigger in Europe than it is here. 
Their radicalization problem is much worse. Muslim communities 
in Europe are simply not as well integrated into the European 
society. Muslims in America are much better integrated.
    The Internet is a huge problem, but the bigger problem than 
the vehicle for the message is the resonance of the message. 
And it is a very powerful message. It is a very powerful 
message that the West, led by the United States, is trying to 
destroy our religion, and we need you to fight for us, we need 
you to fight for your religion.
    And we don't have a lot of credibility, we or the Western 
European governments, don't have a lot of credibility in 
pushing back against that message because we don't have any 
credibility because we are not Muslim. So there are others who 
have to get the right counter-narrative.
    So it is more the message than it is the vehicle for it.
    I will also say, just to reiterate something that Robert 
said earlier, the fact that they have a safe haven gives them 
great credibility in spreading their message. It makes them the 
center of mass in the jihadi movement. People want to join the 
winners. And if you put the message with that, that is where 
the power comes from.
    Mr. Castro. Thank you.
    The Chairman. Mr. Byrne.
    Mr. Byrne. Thank you, Mr. Chairman.
    And thank you, gentlemen, for your patience and your very 
good insight.
    If I had done--and I did do--town hall meetings 2 years 
ago, the people in my district would have been, at best, 
ambivalent and probably pretty negative about any idea of 
further intervention in Syria. But a lot has happened over the 
last 2 years, and I can tell you from my town hall meetings, 
that is not what I am hearing anymore. People are worried, 
because if you watch the course of events, these events have 
come closer and closer to home. San Bernardino, a lone-wolf 
attack but nonetheless inspired, if not indirectly directed, by 
the people of ISIS, have got my constituents' attention.
    But I am from Alabama. We believe in winning. We know you 
can't win unless you have the right coach--Roll Tide--you can't 
win unless you have the right coach. I am not asking you to 
comment on the coach. And that coach has got to have a plan. 
And the plan has to be a plan to win. And you have to train the 
team to win on that plan.
    Now, my constituents come to my town hall meetings and say, 
where is the plan, the winning plan? This President has not 
articulated a plan at all, whether it is a winning one or not.
    So we are going to be changing coaches, changing Presidents 
in a year. And, once again, my question is not directed at who 
that should be. But if you were advising that next President of 
the United States on what the winning plan is, how we win this 
war, what would the elements of that plan be?
    Dr. Vickers. So, first, as an Alabama grad, let me say 
``Roll Tide'' back at you.
    Mr. Byrne. There you go. Roll Tide.
    Dr. Vickers. So I tried to outline some of them, with 
respect to Syria and then the global jihad and then the broader 
competition between regional powers in the Middle East. But, 
again, these things will take time. You know, it is a question 
of reducing our risk, denying the sanctuary.
    But these operations--you know, if you think of it as a 
series of campaigns that eventually lead to a winning strategy 
that eventually lets you win the war, winning the war is going 
to take an awful long time until you get governance in the 
Middle East.
    And so then you have to think of it in terms of a Syria 
campaign, Iraq campaign, campaign against the global jihadists 
in Libya and elsewhere to make sure, you know, you are 
progressively defeating them while you, you know, accelerate 
efforts in some areas. But, again, the problem is just too big 
for a single knockout blow.
    Robert.
    Ambassador Ford. I think the biggest problem with our Syria 
policy is we have a strategy, which is to get to a new national 
unity government, but we have no tactics to get there. It is 
like a hope. It is a wish. And it has been a wish since 2012, 
but we are not getting any closer, frankly. As I mentioned 
before, the Russian intervention probably pushes it even 
further back.
    So, to me, the fundamentals of the strategy are: We want an 
indigenous force in Syria, and in Iraq, able to eventually 
grind out, eliminate the Islamic State and other extremists. I 
take the Congressman's point that Al Qaeda is still there.
    In order to do that, you have to have governments that 
basically promote national reconciliation on some level. I 
think we are seeing that emerge in Iraq. We are nowhere near it 
in Syria.
    And I think if the press reports of what I read of what 
General Petraeus said to the committee last week are accurate, 
I subscribe fully to the sorts of things that he was talking 
about, in terms of putting pressure on in order to get to a 
serious negotiation. So far, the administration has declined to 
do that.
    Mr. Byrne. Let me ask you a follow-up question, Ambassador. 
If we are going to rebuild that country, we have to rebuild it 
with Syrian people. Yet we have seen a wholesale outflow of 
refugees from Syria--I would argue, probably the very people we 
need to depend upon to rebuild the country.
    Shouldn't we be pursuing a policy that brings those people 
back to Syria, closer to Syria, so that we can bring them into 
rebuilding of that country, and not continue to see these 
efforts to welcome them to places away from Syria?
    Ambassador Ford. I think you want to be careful here, 
Congressman. Why did they leave Syria? The opinion polls that I 
have read of Syrian refugees themselves, somewhere between 70 
and 80 percent say they left because of the aerial bombings of 
their neighborhood, the barrel bombs. And some fled the Islamic 
State, although, actually, the numbers that fled the Assad 
government's aerial bombing are much, much, much higher than 
the number who fled the Islamic State, as brutal as the Islamic 
State is.
    So you have to deal with that root cause in order to 
convince people to go back. There could be reconstruction. We 
might be able to find ways to generate the resources to help 
the country rebuild. But you can't do any of that as long as 
the war goes on, so I go back to what I said about that.
    With respect to keeping them closer versus farther, yes, 
there is big debate about Syrian refugees right now. I would 
just say this: Having refugees in camps indefinitely, even near 
Syria, in Lebanon or Turkey or Jordan or Iraq, where there is 
no hope, also breeds resentment and actually helps the Islamic 
State recruit, as well.
    And so as we, the Americans, think about whether or not we 
should take refugees, I think we also need to bear in mind that 
choosing not to take refugees plays into an Islamic State 
recruiting effort. And so we will have to judge a whole series 
of factors as we make that decision about refugees.
    Mr. Byrne. Thank you, sir.
    I yield back.
    The Chairman. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    I want to thank our witnesses for your service to the 
country and also for your appearance today, in particular, Mr. 
Morell and Dr. Vickers. In my 8 years on the Intelligence 
Committee and also my years here on the Armed Services 
Committee, I always appreciated your candid testimony before me 
in both those areas.
    I think, clearly, obviously we have extraordinary 
challenges in our efforts to defeat ISIL, both on the military 
front and on the political front. And you all have outlined 
some concrete steps on both, particularly on the military 
front. The bigger challenge that we see is going to be 
defeating ISIL on the political front, especially given the 
fact that there are countless examples throughout the Koran 
that ISIL uses to justify their actions.
    What are the most effective ways for us to delegitimize 
ISIL, in particular, you know, given the headwinds we are up 
against when ISIL or Al Qaeda are using the Koran to justify 
what they are doing?
    Now, the Emerging Threats and Capabilities Subcommittee has 
recently held several hearings and briefings on countering 
extremist messaging, also authorizing a counter-messaging demo 
program last year. And on Friday the White House announced a 
new task force for this very purpose.
    So as we work to bolster information operations in our 
fight to delegitimize ISIL's ideological messaging, what 
capabilities do we need, and what tactics and techniques and 
procedures should the military and the new task force employ?
    Dr. Vickers. So I will start.
    I think the most immediate thing we can do in the near term 
is to take away their narrative that they are on the path to 
victory. As we were talking about earlier with Congresswoman 
Sanchez, it really is this caliphate on the path to end times 
that I think is our most promising opportunity.
    It won't end the war, it won't destroy their ideology, but 
it will certainly put a big dent in it, much as you saw right 
after 9/11 when Al Qaeda was expelled from Afghanistan. You 
know, Al Qaeda's stock went down in terms of public opinion in 
the Islamic world for a while. You know, they were seen as 
suddenly a loser rather than a winner.
    Mr. Morell. Congressman, I would just add that, you know, I 
think the illegitimating of the religious justification for 
what jihadists are doing, whether they are ISIS or Al Qaeda or 
anybody else, has got to come from the Muslim leadership.
    President Sisi in Egypt gave a remarkable speech a year 
ago, a year ago this month, where he basically said that there 
needs to be a revolution inside of Islam. He has not done any 
follow-up to that, as far as I am aware, but it was a 
remarkable speech at the time, and it was absolutely right.
    There are plenty of verses in the Bible that would seem to 
justify violence, but there aren't a lot of--there is not a 
significant number of Christians who act on that. We moved 
beyond that. Islam needs to do the same. And that is what 
President Sisi was saying.
    And we don't have credibility in making those arguments. We 
just don't. And so we need to have conversations with the 
leadership in the Muslim world about how they need to take this 
on themselves. But I think that is something that America's 
diplomats need to talk to the leadership of those countries 
about.
    Mr. Langevin. Thank you.
    Ambassador, do you have anything to add?
    Ambassador Ford. Yes, I do.
    The most effective social media video that I have heard 
about in the last 6 months to delegitimize the Islamic State 
came out of the Free Syrian Army. And it got a lot of play on 
social media. And, basically, if I can sum it up in 15 seconds, 
the video shows victorious Free Syrian Army soldiers marching a 
bunch of orange-clad Islamic State prisoners and says, we are 
now going to execute these guys because they are infidels, they 
are apostates, which is exactly what the Islamic State has been 
doing to Free Syrian Army soldiers they have captured.
    But at the very last moment, as they are about to behead 
them, a screen comes on and it quotes several verses from the 
Koran saying, ``God says grant mercy. God says don't kill 
people. They have intrinsic value.'' And so the knife is pulled 
back and their chains are set free, and they say, ``Join us.'' 
That video has been viewed tens of thousands of times in the 
Middle East.
    My point in this is it was indigenously produced, and, in a 
sense, it played to themes that they understand better than I 
ever would, even though I spent 30 years in the region.
    What we can probably most do is help people like that get 
their messages out. But it can't be put on a dot-gov Web site 
because young Arabs aren't going to get a lot of guidance, 
shall we say, or they are not going to take a lot of advice 
from a dot-gov Web site.
    Mr. Langevin. Thank you.
    My time has expired, and I want to thank you all for your 
testimony.
    One thing, if you would, in writing if you could respond, 
just identifying our most significant intelligence gaps and 
what we should do to close those now. I know my time has 
expired, so I will yield back, but if you could respond to 
those in writing, it would be very helpful, especially given 
your experience and years of service in those areas.
    [The information referred to was not available at the time 
of printing.]
    Mr. Langevin. Thank you.
    The Chairman. Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Mr. Chairman.
    I thank you all for being here today.
    You know, as I look at what we are facing and what you have 
talked about so well today, you know, I believe that the United 
States needs to lead on this, but we can't lead and do things 
alone, that we need to develop our coalitions wholeheartedly 
with our European allies and with our allies in the Middle 
East. You know, you see what happened in Paris, and then France 
wants to become more involved. And I think that we need to 
establish that.
    And my concern is that we are not doing enough; we are not 
doing enough to establish these diplomatic ties with our 
allies. Possibly, we need to share more information, coordinate 
better, and certainly could possibly do more as far as trying 
to disrupt them economically. And then, of course, there is the 
component of what we are going to do militarily.
    And, Ambassador, I appreciate what you just shared with us 
because that has been one of my concerns all along, is what we 
are doing. I have seen some of their videos and how they try to 
recruit, and I am like, are we doing anything to counteract 
that, to get people that go online, to pay attention to these 
things, to get another point of view? And I would hope that we 
would do something more like that to counter how effective they 
have been in that regard.
    But I would like to just to ask each of you, what more do 
you think we should be doing, militarily and non-military, and 
maybe even more non-military, as I discussed, as far as 
diplomacy and trying to hurt them economically?
    You know, you mentioned before how much they collect in 
taxes. I mean, that is pretty incredible. And I don't know that 
many people realize that. That was kind of a new revelation to 
me. You know, I thought most of the revenue was coming from 
oil.
    So what are some of the things that we can do, both 
militarily and non-militarily? And how should we develop our 
coalitions? Because, to me, this is a global good-versus-evil 
event that is taking place in this time.
    I will start with you, Mr. Morell.
    Mr. Morell. So I will answer the intelligence question now 
because it is an area that we need--I don't know if it is put 
more emphasis on, because I know there is a lot of emphasis, 
but it is an area we need to improve on significantly.
    We need two types of intelligence out of ISIS. We need 
intelligence on their plans and intentions and specific plots 
that they are planning, both in the region and in Europe and 
the United States, if we are going to be able to disrupt those.
    And we need intelligence that will give us a lot more 
targets on the ground. You know, Mike talked about our success 
against Al Qaeda and the Taliban in Afghanistan post-9/11. It 
was because we had very specific intelligence on what the 
target should be. All right?
    So I think we need a much better intelligence in those two 
areas. It is very difficult to get because we are not on the 
ground in the caliphate. So we are going to need partnerships 
with a lot of different people in order to get the assets that 
we need to get inside the ISIS leadership and to get those 
targets on the ground that we need. And it probably needs to be 
the most important thing that the intelligence community is 
doing at the moment.
    Dr. Wenstrup. Dr. Vickers.
    Dr. Vickers. Yeah, I agree with that. And if you look at 
our counterterrorism campaigns where we have had a lot of 
success, that approach has worked generally well, where we have 
really built up our assets over time, from Afghanistan and on 
into the Pakistan tribal areas, et cetera. It has paid big 
dividends, and then it started to pay in Yemen, as well, and, 
you know, we are trying to close the gap in Syria.
    As far as the outlines of the strategy, the military side, 
I think, again, more intense going after ISIS as a state. You 
have to take that state down for political reasons, but, also, 
that is one thing our military really knows how to do. And then 
to exploit the effects of that, you have to have an indigenous 
ground force.
    Dr. Wenstrup. And I appreciate that. And so, I guess, what 
do you see that looking like? Because it is something we are 
good at, let's say, but I don't think in this situation, having 
served in Iraq, I don't want to be seen as occupiers, I don't 
want to be there by ourselves. I think we need to have people 
from the region, as well, that are holding that ground.
    Dr. Vickers. I agree with you. I think, you know, our role 
should be limited to being advisers, one, for the reasons that 
Robert talked about, about national reconciliation and the 
rebuilding task, which is really the hard task afterwards. And 
if we try to do that, one, we will fail, but, two, we will 
subject ourselves to a lot of unnecessary pain.
    Dr. Wenstrup. Ambassador, do you have anything to add?
    Ambassador Ford. Can I shift just slightly?
    Dr. Wenstrup. Sure.
    Ambassador Ford. I think there are two--I talked about 
Saudi Arabia and the Gulf and reassuring on our shared interest 
in their stability. I think, two other things on the diplomatic 
side that need to be done.
    Number one, I think there is a need for a much more frank, 
high-level discussion with Turkey. I am very happy every time I 
see that our President has talked to their President. I wish 
they would talk all the time. Because Turkey is probably the 
most important country in the Syria conflict, aside from Iran, 
and it has an ability to really help and it has an ability to 
really be a spoiler.
    And so we just have to have a really frank, behind-closed-
door discussion with them. I think the Vice President is 
planning to go to Turkey. I certainly hope he does. And I think 
the message needs to be blunt, but it needs to be behind closed 
doors. That is not an argument that should be aired in public.
    And to be fair to the Turks, they have interests. I mean, 
they have interests with what is happening with the Kurds, and 
they have interest with the neighbor to the south in Iraq and 
in Syria.
    And so, second, and related to that, Turkey and Qatar are 
backing one side in the Libyan conflict, and the Egyptians and 
the Emirates are backing a different side. And just the fact 
that they are pulling in opposite directions, Congressman, just 
makes the whole Libya problem more difficult.
    There are other countries that have interests in Libya too. 
Algeria shares a very long border, and Algeria has a problem 
itself with Islamic extremists; Tunisia, where there have been 
multiple terrorism attacks; the European Union.
    There just has to be a greater sustained effort on the 
Libya diplomacy side. Secretary Kerry was with the United 
Nations in Rome, where they talked about putting together a 
Government of National Accord. It is not a one-time-meeting 
kind of thing. There needs to be a sustained, high-level 
effort.
    Dr. Wenstrup. Thank you. My time has expired.
    The Chairman. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you all for bringing your expertise to us today. 
We appreciate your distinguished service.
    I wanted to sort of respond to some of the conversation 
that we have had. And I think that we all acknowledge and 
understand one of the first things that we need here, I think, 
on the committee but also in the country is patience. It is 
very difficult to push when we know that the timeline is out. I 
remember one of the Iraqi generals saying something to the 
effect of, well, we think we might be operational by 2020. And 
everybody looked at him like, you know, come back another day. 
And so that is important for us to acknowledge.
    And the other thing that you have all mentioned, and I 
think particularly Ambassador Ford, is reassuring our allies.
    So I wanted to ask you, Ambassador Ford, because you 
highlighted, in talking to Syria, issues of conditionality, 
particularly as we are working with those who are fighting with 
the opposition, where is it that we have fallen short in 
seeking more conditionality moving forward? How could that be 
done differently?
    And, certainly, this is a whole-of-government approach to a 
large extent, and you have been talking about sustaining the 
efforts in terms of the State Department. And, at the same 
time, we know that, whether it is funding or whatever that may 
be, we often don't engage at the level that we should. Where 
should those efforts be, specifically, in terms of Syria?
    Ambassador Ford. I think, Congresswoman, on two levels.
    On a national geostrategic level with countries of the 
region--Turkey, Saudi Arabia, who are big players in Syria, and 
Iran. And I assume the Secretary of State is now having some 
frank conversations with the Iranian Foreign Minister. Of 
course, the Iranian Foreign Minister doesn't control Iranian 
policy in Syria. There is another man in the Iranian Government 
named Qasem Soleimani from the Revolutionary Guard Corps who 
controls it. So it is awkward, but there needs to be sustained 
engagement there.
    And I think when you talk about conditionality, to me, one 
of the basic elements is we tell the Turks and the Saudis that 
we are not interested in helping extremists in the Syrian 
opposition who will reject a political solution and insist only 
on military victory. Any assistance we give to any Syrian 
opposition group should be conditioned on their acceptance of 
an eventual political deal, not military victory.
    Second level for conditionality engagement has to be at a 
more local level. I mentioned that there are areas that are 
being liberated, whether it is from the Islamic State or 
sometimes from the Assad regime. You would need to keep the 
services going.
    And State Department has tried to do this. I have to be 
honest; my colleagues who are still in government tell me it is 
becoming more difficult because of security. And I certainly 
hope, and I know Chris Stevens would hope, that what happened 
in Benghazi does not prevent colleagues from doing their jobs, 
going forward and engaging with people locally, in the case of 
Syria or Iraq, to help national reconciliation and the 
restoration of capable local governance.
    Mrs. Davis. Thank you. Thank you for that.
    I don't know whether, Mr. Morell or Dr. Vickers, you wanted 
to comment on that area of conditionality, but I wanted to just 
follow up quickly.
    I know, Dr. Vickers, you spoke about trying to look at the 
Afghan strikes initially and kind of taking a look at that. 
What happened after, obviously, was a far greater problem. But 
are you suggesting that we really do need to have far more 
strikes than we are having? And issues of collateral damage, 
issues of greater radicalization of the area that can occur, 
are these the considerations that come into this equation? And 
how does this play into, really, the issues around a no-fly 
zone, as well?
    Dr. Vickers. Thank you.
    So, yes, I am arguing for a more intense air campaign, much 
like we did in Afghanistan in 2001. And, as you said, that 
didn't end the war. That just eliminated Al Qaeda's sanctuary 
in Afghanistan and, you know, toppled the Taliban regime, you 
know, and the Taliban lived to fight another day, and Al Qaeda 
fled somewhere else.
    Mrs. Davis. Right. And, unfortunately, we went to Iraq.
    Dr. Vickers. Yeah. So, you know, all sorts of things.
    But one of the things you see in these campaigns is that--
collateral damage is, obviously, a critical concern. It does 
not go up linearly with the intensity of strike, mainly by the 
way we operate.
    So if you look at areas where we have had more relaxed 
rules of engagements in our counterterrorism campaigns and we 
have done more strikes, we have had more liberal policy, versus 
others where we have been more restrained, you know, you 
occasionally make mistakes, and so you have that 1 percent 
where, no matter how hard you try, you are not perfect, but 
there is not this correlation by a factor of 10.
    And that was true--now, again, you know, war zones are 
different from areas outside of hostilities. But, you know, we 
are in generally a precision world right now, and so I think 
that you can responsibly intensify the air campaign.
    Because, as you said, if you do have collateral damage, you 
will defeat your purpose. You know, you will turn more people 
against you and everything else. And so that is just driven 
into our operations right now.
    I don't know if my colleagues want to address that.
    Mrs. Davis. I am sorry, I think I am out of time.
    Mr. Chairman, thank you.
    The Chairman. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here.
    And I know we have talked a lot about Syria and other parts 
of the world outside the U.S. I want to get back to the U.S. 
for a couple of minutes.
    Mr. Morell, you said that the FBI has over 800 open 
investigations in this country?
    Mr. Morell. 900.
    Mr. Scott. 900. Okay. I am, quite honestly, surprised that 
it is not even higher than that, with what we have seen.
    Do we know what percentage of those investigations are U.S. 
citizens and what percentage are not U.S. citizens?
    Mr. Morell. I think, Congressman, the vast majority are 
U.S. citizens.
    Mr. Scott. The vast majority are U.S. citizens.
    Of those who are not U.S. citizens, do we know how they got 
to the United States, whether it was refugee or visa, or what 
gaps? Did they come across the border illegally?
    Mr. Morell. Congressman, I just don't know that data.
    Mr. Scott. Those are certainly things that I think we 
should follow up on and try to find what the commonalities are 
of those who seem to desire to be a part of that organization.
    The other thing that there seems to be uniform agreement on 
is that, as long as ISIS maintains large blocks of territory, 
then they will be a power in that region of the world. How many 
countries do they claim to have territory in today?
    Dr. Vickers. I want to say it is about 8 to 10, something 
like that.
    Mr. Scott. Eight to ten. That is----
    Dr. Vickers. There is Nigeria, Algeria, Libya, the Sinai--
--
    Mr. Morell. There are militant groups in about 20 countries 
that associate themselves in some way with ISIS. ISIS does not 
have----
    Mr. Scott. Do they claim territory in all of those areas, 
or----
    Mr. Morell. No.
    Mr. Scott [continuing]. Do they just----
    Mr. Morell. No. No. They claim territory in a handful of 
them.
    Dr. Vickers. They call them provinces.
    Mr. Scott. Right.
    Mr. Morell. And some of those have no contact with the ISIS 
leadership in Raqqah. Some of them do. ISIS has sent emissaries 
to some of these places to interact with these guys.
    Mr. Scott. Would you agree that an area where they actually 
claim territory, that is different than having an operation, 
the actual claim of physical territory and land?
    Mr. Morell. You know, we all three of us--right?--have made 
points about how important safe haven is, how important 
territory is. And that is true for those militant groups who 
associate themselves with ISIS, as it is for ISIS.
    Mr. Scott. So is one of the countries that they claim to 
have a safe haven in Saudi Arabia?
    Mr. Morell. No.
    Mr. Scott. It is not?
    Mr. Morell. No. They have cells, they have terrorist cells 
in Saudi Arabia.
    Mr. Scott. Okay. So which one of those territories, or 
nations that they claim to have territory in, would their 
operation be the smallest in?
    Ambassador Ford. Algeria.
    Mr. Scott. Algeria.
    Ambassador Ford. They have an affiliate, the Wilayat al-
Jazair, the Algeria Prophet, they call it, and it is basically 
a group called Jund al-Khilafah. It is not very big, probably 
maybe 50 to 100 fighters. They murdered a Frenchman----
    Mr. Scott. Let me stop you right there. You hit on the 
point I was trying to get to: It is not very big.
    Ambassador Ford. Right.
    Mr. Scott. So while we are trying to figure out how to 
carry out these extremely complex military operations and 
diplomatic operations in countries like Syria, why shouldn't we 
destroy them in these other countries that they claim territory 
in, start to get small victories against them? Why shouldn't we 
just wipe them out in there?
    If they only have 100 people, why can't we--why don't we, I 
should say--wipe them out so that instead of claiming land in 
10 countries they claim it in 2 or 3? And you defeat the small 
ones first, and then you defeat the big ones. That way, you are 
not playing Whac-A-Mole when you go in and take on the big one.
    Ambassador Ford. With respect to a place like Algeria--two 
comments.
    Number one, the Algerian Government is vigorously pursuing 
this group. They hate them. They despise them. They have been 
fighting groups like this since the early 1990s.
    That said, the Algerians, in particular, are quite 
sensitive about the deployment of foreign forces on their soil. 
They are hypersensitive. It would probably be easier, 
Congressman, to deploy special operations forces--politically, 
it would be easier, politically, to do it in a place like 
Tunisia or Yemen.
    Mr. Scott. And if I can finish up, with the 15 seconds I 
have left. That is what creates the challenge with the 
authorization for the use of military force, is that they are 
in so many countries which are sovereign states, and us, as a 
country, operating militarily in those states without their 
permission is a tremendous challenge.
    And so any suggestions that you have--I am out of time, 
but, certainly, in how the authorization for use of military 
force could be drafted that allowed us to carry out those 
operations. But you are talking about multiple countries, not 
just one or two, and that makes it an extremely complex issue.
    Congratulations on the national championship, Dr. Vickers. 
We look forward to beating you----
    Dr. Vickers. There is always next year.
    Mr. Scott [continuing]. Next year.
    Dr. Vickers. Yeah. That was a great game.
    The Chairman. Ms. Gabbard.
    Ms. Gabbard. Thank you.
    Good morning--good afternoon.
    Mr. Morell, you spoke about President el-Sisi in Egypt and 
that great speech that he gave and the need for leaders within 
Islam to combat and counter this radical extremist ideology 
that is driving groups like ISIS and Al Qaeda. And you very 
eloquently drew that line between connecting groups like ISIS 
and Al Qaeda and how that ideology is exactly the same.
    I had a chance to meet with President el-Sisi in Egypt in 
November. I spent close to 2 hours talking with him and heard 
from him how he is continuing to meet with imams and gatherings 
of religious Muslim leaders and continuing this effort but 
remains frustrated about the cold shoulder that he is getting 
from the United States and, really, the lack of action on our 
part about recognizing the need to, as you said, identify and 
understand your enemy and the ideology that is driving them.
    So when we understand and know that ISIS has the same 
ideology of this radical political Islamism that Al Qaeda has, 
that al-Nusrah has, and many of these other groups that are 
fighting in Syria to overthrow Assad, to establish their 
caliphate, why is it, in your opinion, that the U.S. in Syria 
is only targeting ISIS and is not, to my knowledge, targeting 
any of these other variety of Islamic extremist groups who 
adhere to and who are fighting under and motivated by this 
exact same radical Islamic ideology?
    Mr. Morell. We are. In particular, the Khorasan Group, 
which is associated with al-Nusrah and is the external 
operations arm of al-Nusrah.
    Ms. Gabbard. Do you know when the most recent attack on the 
Khorasan Group was?
    Mr. Morell. I don't. I know there was a flurry of attacks 
on them early.
    Ms. Gabbard. A couple years ago, I think.
    Mr. Morell. Those attacks were successful.
    You know, the focus is on ISIS for obvious reasons, but my 
sense is that we are targeting other groups in Syria.
    Just to go back to what you said about Egypt, which I think 
is very, very important, Congresswoman, I agree with what 
Robert said earlier, that it is very important for the United 
States to be able to segregate. It is very important for us to 
be able to say to President Sisi, here are the things that you 
are doing that we don't like, but here are the things that we 
are going to support you on 100 percent.
    And I think it is very important to be able to have those 
conversations and to separate your policy in a way that you can 
be supportive of the very, very important things that a leader 
might be doing even though you have some other problems with 
him.
    Ms. Gabbard. Well, I think even folks who are working 
within Egypt on our side recognize that there is still a lot 
more that needs to be done----
    Mr. Morell. Yes, they do.
    Ms. Gabbard [continuing]. In order to form that partnership 
that is mutually beneficial for both of us.
    Just to your point about your sense is that we are 
targeting Al Qaeda, I have been asking that question multiple 
times of multiple people and have not gotten that sense, that 
we are targeting Al Qaeda and al-Nusrah.
    And one of the reasons that I see--and some of you have 
been talking about the opposition forces. It has become very 
clear to me that we are ignoring, the United States is ignoring 
the fact that the most effective fighting force within that 
opposition that you and others are referring to who are trying 
to overthrow Assad are Al Qaeda, they are al-Nusrah, they are 
these Islamic extremist groups, who have been reported, as they 
have taken over territory, to be implementing and enacting this 
political Islam, forcing women to wear burqas, and implementing 
this religious law on the society that they have in the same 
way that we have seen ISIS in the territory that they have 
regained.
    Go ahead, Dr. Vickers.
    Dr. Vickers. So, one, I think--I generally agree, but I 
think you need to draw a distinction between the external 
plotting arm of al-Nusrah, whether they call them Khorasan 
Group or Al Qaeda veterans. A number of those attacks, which 
began in September 2014, have continued as those targets have 
been developed. I think Sanafi al-Nasr or somebody--you know, 
there have been--David Drugeon--I mean, there were a series of 
them over the past year, I would say.
    Al-Nusrah proper, which is, I don't know, some 6,000, 9,000 
troops or so, but they are spread across the country. I would 
agree that a lot of the foot soldiers have done tactical 
alliances with other parts of the opposition and have not been 
targeted in the same way. Partially, I think it is an 
intelligence issue, and, you know, the big focus has really 
been on these external plotters, I believe.
    Ms. Gabbard. Well, I think that--and I will just close with 
this--to me, the problem is very clear that there are two 
contradictory U.S. wars that we are waging. One is to overthrow 
the Syrian Government of Assad, which is also the objective of 
ISIS and Al Qaeda and these other groups. And the other is the 
war to defeat ISIS, without a clear strategy or a clear action 
that I have seen, at least, against Al Qaeda and al-Nusrah and 
these other groups.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Dr. Fleming.
    Dr. Fleming. Thank you.
    Gentlemen, I have listened to your testimony, and it is all 
very interesting and informative.
    Let me ask you this: Have all three of you worked within 
the Obama administration?
    Dr. Vickers. I have.
    Dr. Fleming. I believe you have.
    And I listened intently as you, in particular, Mr. Morell, 
outlined eloquently how the current state of the Islamic world 
is an apocalyptic sort of view coming out of their religious 
studies out of Iran. Many believe that if you are an infidel, 
if you are not a believer, that you should be put to death and 
that there will be a messianic figure to come and kind of rule 
over the world.
    I guess my question is, have you had these conversations 
with our President?
    Mr. Morell. Sir, I would say that there is not much that I 
have said here today that my former organization hasn't shared 
with the President of the United States.
    Dr. Fleming. Okay.
    Would you say the same?
    Dr. Vickers. I would.
    Dr. Fleming. The reason why I ask that question is because 
the American people, I think, just listening through the media, 
reading newspapers, agree with what you have to say, but our 
President seems to think that it is merely a coincidence that 
terrorists happen to be of the Islamic faith. And the problem 
with that, of course, is that limits how we deal with the core 
issues behind all of this.
    I also heard you articulate, very importantly, how non-
Islamists like ourselves, we don't have quite the credibility 
to say, ``Guys, you know, these beliefs are not consistent with 
the Koran and it is not consistent with how we should live 
together in this world. You really need to turn away from this 
philosophy.'' We need to rely on the Muslim world to do that.
    But yet it seems to me--and I will tell you that most 
people in my State of Louisiana seem to feel that, even though 
there are many Muslims around the world, both domestically and 
abroad, who may not be in the fight, they still agree with the 
philosophy, the basic philosophy. And that is the reason why 
there is a resistance for them to come through and say, ``Look, 
we need to cut this out. We need to stop killing people just 
because they are not believers in Islam.''
    I would love to have your response on that.
    Mr. Morell. I mean, I do think there are the guys who 
actually are acting on the beliefs, and then there is another 
group who share those beliefs and aren't acting on them, and 
then there is a not insignificant number--it is not a majority, 
but not an insignificant number--who are comfortable with all 
of it. And you see it in polls. Absolutely, you do.
    And it just reinforces--right?--what we talked about 
earlier, the importance of getting your arms around the 
creation of terrorists in the first place--right?--and not just 
dealing with them once they have been created.
    Dr. Fleming. Right.
    The other gentlemen, would you like to add to that?
    Ambassador Ford. Congressman, some of the opinion polls 
that I have read done by the Pew organization, Pew Research, 
have some statistics that are actually kind of shocking. The 
number of people in countries like Egypt and Jordan who 
support, for example, chopping the hands off thieves sometimes 
goes up to the 70- and 80-percent range--for a variety of, sort 
of, things which the Islamic State already does.
    And that is not to say those people are all believers in 
what the Islamic State is trying to do, but it is to say that 
they are religiously conservative.
    Dr. Fleming. Right.
    Ambassador Ford. That is just one of the complications of 
dealing with the Islamic State.
    That said, Michael Morell was talking about the role of 
President Sisi. I was very struck that, about a year and a half 
ago, 300 scholars, some of them quite well known within the 
Islamic world, Sunni, came out with a very, very strong 
denunciation of the Islamic State and the caliphate. It was 
about 3 months after it was announced and after they had done 
the first really gruesome beheadings of foreigners, as well as 
Syrians and Iraqis.
    And I think it is always good to remember that the vast 
majority of victims of the Islamic State are themselves Muslim. 
Christians have suffered, unquestionably, and others, but the 
vast majority are Muslim. And that is why I think the most 
effective people to talk back to the Islamic State are not 
Americans who are not Muslims but other Muslims.
    Dr. Fleming. Well, I am running out of time, but I would 
just end by saying that it seems absolutely necessary that we 
energize and stimulate the Muslim world to see this for what it 
is and that it is only going to make life difficult for 
everyone until they get involved and actually begin to counter 
these terrible philosophies that are really keeping us away 
from peace around the world.
    And I thank you, gentlemen.
    And I yield back.
    The Chairman. Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    Ambassador Ford, I would like you to comment on a 
relatively recent development, which is the U.N. Security 
Council outline for a peace process in Syria. And I would like 
you to do so within the context of everyone's agreed goal of 
ultimately seeing Assad replaced. We want to make sure that we 
minimize any threats to the United States and to our allies. We 
would like to see stability in that region. We want to minimize 
the loss of human life and suffering. And I think we all, the 
United States and the world community, would like to see 
justice served for some truly horrific crimes in that area.
    Train and equip hasn't really worked to that end so far. It 
has been an abysmal failure. Mr. Morell, prior to saying at the 
end of the day we have to get rid of Assad, or Assad has to go, 
said we don't have a credible ground force in Syria.
    So tell me, Ambassador Ford, your thoughts on the prospects 
for this process, how aggressively we should commit to it, if 
you agree that it is the path to take, and what we can do most 
effectively, militarily, diplomatically, economically, or 
otherwise, to get to our goals through a more peaceful process.
    Ambassador Ford. Thank you, Congressman O'Rourke.
    In brief, I don't think the process is going to go 
anywhere. And I didn't think that a month ago before this 
Saudi-Iranian latest spat erupted.
    There is nothing in the documents that came out of Vienna, 
where Secretary Kerry was with other foreign ministers, nor is 
there anything in the Security Council resolution that says 
that Bashar al-Assad must go. It is just simply not addressed.
    Second--by the way, I would just say that, to me, is 
something the Syrians ought to negotiate. It shouldn't be a 
precondition, but it ought to be on the table.
    Second, right now, there is a lot of goofing around going 
on about who should represent the Syrian opposition. And the 
Russians are trying to put their friends on the opposition 
delegation; the Iranians are trying to put some of their 
friends; and, frankly, the Turks and the Saudis are trying to 
put some of their friends. Syrians are not in control of this.
    That, to me, spells disaster, especially if the really 
serious armed opposition guys, who accept a political solution, 
if those serious armed opposition guys are excluded from the 
negotiation, I can't imagine they will sustain their support 
for a political deal.
    There has been a lot of talk about getting a cease-fire. 
You know the pictures of the starving people in Madaya? Madaya 
had a cease-fire. You can see what a cease-fire looks like. So 
if you are in one of those areas where there is a cease-fire 
and then you begin to criticize the regime, you don't want to 
appear on TV in their propaganda, which is what happened in 
Madaya; then, suddenly, food gets cut.
    So I think, in all of this, it is not to say we shouldn't 
pursue a political process with this U.N. Security Council 
resolution, but it only works if there is pressure on all the 
sides--and I do mean pressure--on all the sides to make a 
compromise.
    Mr. O'Rourke. So be explicit about that. In terms of 
pressure, are you suggesting a greater military pressure from 
the United States?
    Ambassador Ford. Well, I am not saying that the United 
States should be bombing the Assad regime. I have never 
advocated for that. But I do think that there are people in the 
Syrian opposition who accept the need for a political solution, 
and they need more support than they are getting. They always 
have, and they still do.
    Mr. O'Rourke. And you think some additional support will 
get us to where we need to be----
    Ambassador Ford. Absolutely.
    Let me give you an example of what I am talking about. So 
when the Russians intervened, started bombing, suddenly more 
anti-tank missiles appeared on the battlefield in the hands of 
the opposition, and they blunted a series of Assad offenses. 
That is what I am talking about.
    It is not that the opposition is going to win a military 
victory. That would take forever and destroy whatever is left 
of Syria, not that there is much left. But the point is to 
inflict enough pain on the Assad government and its supporters 
that they will negotiate seriously at the table.
    Mr. O'Rourke. So what Syria is missing right now is more 
pain. There hasn't been enough pain in the last few years.
    Ambassador Ford. There hasn't been enough pressure put on 
the Assad regime to accept major compromises.
    Mr. O'Rourke. Yeah.
    With everyone on the panel agreeing that Assad should go--
and I think he should also go, but I think you also said that 
should be a decision of the Syrian people--do you think the 
United States should be willing to accept his staying for some 
short period of time in order to achieve some of our other 
goals?
    There is no perfect solution to the situation right now 
that is at least within our control. Should we be willing to 
concede some things, including Assad's presence, in order to 
get less suffering, more peace, more stability, serve our 
interests in the region?
    And I am out of time, so I will take that response for the 
record from the panel.
    [The information referred to was not available at the time 
of printing.]
    Mr. O'Rourke. Thank you, Mr. Chairman.
    The Chairman. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    I served in Iraq with the United States Marine Corps 2005-
2006 in Al Anbar province as a civil affairs officer. And I 
recall the problems with that 20 percent population, the 
Sunnis, who were the ruling elite in the country and were no 
longer and, for a time, certainly didn't see any path to being 
equitably treated. Then you have, later on--I think we gave 
them that path, and then Maliki, I think, pushed them out again 
and created an opening for ISIS.
    And so I think that, in looking at a post-ISIS Iraq, that 
there needs to be some kind of political accommodation for the 
Sunnis. And what I remember is the Kurds had gotten a provision 
within the constitution whereby they could form a 
semiautonomous region, and they have done so.
    Wouldn't that make sense--if we look at the areas that have 
fallen to ISIS, they are all Sunni Arab areas--wouldn't that 
make sense, that there be some sort of a push in that direction 
to show the Sunni Arabs that there is a path, a political 
accommodation, where they could coexist with a Shia-dominated 
Baghdad government?
    And I wonder if any of you could answer that question.
    Ambassador Ford. This is exactly what I was talking to 
Sunni Arabs when I was in Iraq last October. And, you know, 
there was a time when they wouldn't have accepted it, but they 
have changed 180 degrees.
    Mr. Coffman. Good. Good.
    Ambassador Ford. So I think it would have been negotiated, 
obviously. And there are provisions in the Iraqi constitution, 
the same one that the United Nations and the United States 
helped them draft, but there are provisions to do that. And so, 
given that it is constitutionally possible and political stars 
are sort of starting to align that way, I could see that.
    Of course, there is a real fear, Congressman, among Iraqi 
Shias that if you just arm a bunch of Sunnis they will come 
back after us again.
    Mr. Coffman. Sure.
    Ambassador Ford. And that is not an entirely unreasonable 
fear. And so that is why I said it has to be negotiated.
    But I would hope that the American Embassy and our people 
here at the State Department are keeping an open mind about 
this eventuality and are prepared to engage on it. If that 
builds enough Sunni Arab support, then we will have more Sunni 
Arabs in Iraq going after the Islamic State.
    Mr. Coffman. Would anybody else like to comment on that?
    I just think it is very--I mean, it is a vertically 
integrated form of government where, without that regional 
autonomy, all decisions are made from Baghdad, even down to 
whether it is public education or it is local police or any 
decision. So I think there are no teeth in terms of provincial 
or municipal power at this point. And I think that when we talk 
about the Sunnis pushed out of the government, the current 
structure really exacerbates that.
    I have a question about, it seems to me that the targeting 
is fairly limited. And one thing that was discussed earlier was 
the fact that their greatest revenue source for ISIS is their 
ability to tax economic activity within the territories they 
control.
    And so it seems to me that, you know, things like these 
trucks that move the oil, the crude oil, those industries that 
are controlled by ISIS, that we should have a broader target 
list, not simply to hit which is a direct asset to the regime, 
like, say, the selling of crude oil, but also to understand 
that, quite frankly, their capacity to govern is based on, in 
part, the sustainment of that economy. And I think we have to 
look at degrading that economy in order to deny them that 
economic activity and, you know, the capacity to govern.
    And I wonder if any of you can comment on that.
    Dr. Vickers. Yes. I think, you know, all the aspects of 
state power that ISIL has need to be targeted. And I think 
there actually is some intensification in that area recently.
    Now, you know, you would like to destroy as much as 
possible their field army, but they are not making themselves 
as visible.
    Mr. Coffman. Sure.
    Mr. Morell. I agree, but I do think you need to be very 
careful about collateral damage. Right? I do think you need to 
be very careful that we don't create a bigger problem than we 
solve by broadening the target set. So agree that it should be 
broadened, but broadened within the context of minimizing 
collateral damage.
    Mr. Coffman. Sure. But if you--Mr. Chairman, can I just end 
it on one note for the record?
    The Chairman. Briefly.
    Mr. Coffman. It would seem that if you--let's say those 
fuel trucks are not only central to revenue for the ISIS 
government but they are also essential for economic activity 
within their territories, sustaining that economy--and so, 
right now, we are only hitting those that we discern are 
directly related to ISIS. But I would argue that anything--if 
you say, if it moves it, we are going to hit it, and it is a 
tangible target, then my hope is that it wouldn't move. And 
that would, quite frankly, damage the economy and deny them a 
source of revenue from that economic activity.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    Dr. Vickers, you have used the term ``global jihadist 
movement'' and thus identified the global jihadist movement as 
the focus of America's fight against terrorism.
    Isn't it a fact that the global jihadist movement is very 
closely linked to the teachings of Wahhabism? Yes or no?
    Dr. Vickers. Yeah, I would say they draw inspiration, in a 
perverted sense. But, yes, I would say--Robert may want to 
elaborate on that, but the two big global jihadists are Al 
Qaeda and ISIL.
    Mr. Johnson. And they draw their inspiration from the 
Wahhabi strain of Islam. Isn't that correct?
    Dr. Vickers. Yes.
    Mr. Johnson. And Wahhabism is an 18th-century offshoot of 
Sunni Islam, which began in the land that has come to be known 
as Saudi Arabia. Isn't that correct?
    Dr. Vickers. Yes.
    Mr. Johnson. And Wahhabism seeks to purify Islam by getting 
rid of a number of human behaviors and practices that it 
considers to be sins against Allah, correct?
    Dr. Vickers. Correct.
    Mr. Johnson. And Wahhabism is a strict, fundamentalist, 
highly intolerant strain of Islam, correct?
    Dr. Vickers. Yes, correct.
    Mr. Johnson. And, now, isn't it a fact that the Saudi 
ruling monarchy derives its legitimacy by reliance on the 
ideology of Wahhabism?
    Dr. Vickers. Do you want to----
    Ambassador Ford. The Saudis are riding a tiger.
    Mr. Johnson. The?
    Ambassador Ford. The Saudis are riding a tiger.
    Mr. Johnson. So if you will answer my question----
    Ambassador Ford. What I am saying is----
    Mr. Johnson. Isn't it a fact that----
    Ambassador Ford. No, I wouldn't put it that way. I would 
say it is not a fact that they depend solely on Wahhabism for 
their legitimacy. They derive their legitimacy from a variety 
of things. One of them is Wahhabism, but it is not the only 
one.
    Mr. Johnson. Well, is it fair to say that Wahhabism is the 
state-sponsored religion of Saudi Arabia?
    Ambassador Ford. Yes. The Saudi Government sanctions 
Wahhabi imams in their major mosques.
    Mr. Johnson. Well, as a matter of fact, the Saudi monarchy 
promotes Wahhabism through official state-sponsored mosques and 
through religious schools known as madrassas all over the 
world. Isn't that correct?
    Ambassador Ford. Yes.
    Mr. Johnson. And isn't it true that the Saudi Government 
promotes Wahhabism throughout the world based on its oil and 
gas revenue?
    Ambassador Ford. Absolutely, the government's revenues, 
directly or indirectly, help the proselytizing that you 
mentioned.
    Mr. Johnson. And the Wahhabism ideology lines up with the 
ideology of ISIL. Isn't that correct?
    Ambassador Ford. I would say no. For example, the Wahhabis 
in Saudi Arabia, the official ones, do not kill Shia. They 
persecute them. They do not have equal rights. They do not have 
equal rights, but they don't kill them. However, a Shia in 
Mosul or a Shia in Raqqah is liable to be killed.
    Mr. Johnson. Well, yeah, but it is true, though, that the 
ideology of ISIL lines up with Wahhabism.
    Ambassador Ford. I would say it is a starting point, and 
then the Islamic State has taken it several steps farther.
    Mr. Johnson. Yes.
    And is it fair to say that Saudi support for the teachings 
of Wahhabism create fertile ground for ISIL recruitment 
efforts?
    Ambassador Ford. I think Saudi promotion of Wahhabism is 
absolutely a problem in terms of Islamic State recruitment.
    Mr. Johnson. And so we will be unable to defeat the global 
jihadist movement, which is based on largely Wahhabism, which 
is a state-sponsored religion of Saudi Arabia, without somehow 
enlisting the support of the Saudi royal family in withdrawing 
its financial support for Wahhabism. Is that a fair assessment?
    Mr. Morell. So, in the discussion we had earlier about 
dealing with radicalization in the first place--that is what 
you are talking about, right? I think Saudi Arabia is a center 
of where that needs to take place. So there needs to be a 
discussion with the Saudis about their support for Wahhabism 
and how it should be treated and how they should think about 
it. So, absolutely right.
    Mr. Johnson. What was the latest amount of arms that we 
sold to Saudi Arabia, the latest shipment? I think it was, 
what, $100 million worth of arms?
    Dr. Vickers. Well, there is support for the campaign in 
Yemen, but the arms sales that occur periodically are in the 
billions of dollars.
    Mr. Johnson. Thank you.
    And I yield back.
    The Chairman. Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chair.
    Like Rep. Coffman, I, too, am a graduate of the University 
of Al Anbar with the Marines and a graduate degree--I like to 
boot to that sometimes. From my experience there, just 
operating out in that area, mostly the, kind of, Haditha, Al 
Asad, Al Qayyim corridor, I operated a lot with ING [Iraq 
National Guard], and they were decent infantry soldiers.
    Earlier this year, you know, Secretary Carter stated that, 
while air strikes are effective, we are going to need a good, 
reliable Iraqi ground force to be able to take back a lot of 
this territory from ISIL. In your estimation--it doesn't matter 
which one of you all three want to answer this--are we seeing 
an effective Iraqi force on the ground right now?
    There are some conflicting reports I have read about 
Ramadi, how there was an overreliance on air strikes and, I 
think, the special forces of that counterterrorism. And what 
does this mean in the larger relations of us being able to push 
them out of Mosul and other parts of Al Anbar too?
    Dr. Vickers. So I think the Iraqi Army did make 
improvements in the last year, as the Ramadi campaign shows, 
but, as you said, there is still a heavy reliance on the elite 
forces of the counterterrorism service and its subordinate 
elements.
    And then Mosul is a--I mean, one, to take an area, to clear 
an area, is the first part of the problem, as you know from 
your own experience----
    Mr. Gallego. Right. Hold it.
    Mr. Vickers [continuing]. Then you have to hold it.
    Mr. Gallego. Yeah.
    Dr. Vickers. And so the problems will multiply there. And 
then Mosul is, you know, a factor of five, at least, more 
complicated than Ramadi.
    Mr. Gallego. In further following up--and I had questions 
last time we were meeting; I think it was just last week--any 
idea how many bridges and crossways over the Euphrates are 
controlled by ISIL at this point?
    By what means are they resupplying Mosul? From what I 
understand, it is getting more difficult but they still have 
the capability of resupplying Mosul, going through the desert 
up through Al Anbar.
    Dr. Vickers. Yeah, that is my understanding too. You know, 
as Sinjar and some of the other areas on the direct supply 
routes have been cut, they have been forced to go around, 
which, you know, adds time and difficulty, but it doesn't 
eliminate it.
    Mr. Gallego. Thank you.
    I yield back.
    The Chairman. Mr. Veasey.
    Mr. Veasey. Thank you, Mr. Chairman.
    I wanted to ask you a question about ground coalitions or 
Arab allies coming together to help defeat ISIL, particularly 
in Syria.
    You know, last week, we heard from General Petraeus, and he 
basically implied that the U.S. needs to take more of a support 
role and help them to defeat ISIL. And then Secretary James 
Baker, also a Texan, he has said the fact that the Arab allies 
needing to come together to create a coalition to build a 
ground force.
    If you were going to build a ground force of--an Arab 
coalition ground force, particularly with Sunni soldiers that 
would go into Syria, to be able to go door to door and tell 
people in these towns and in these cities and communities that 
ISIL is basically an insult and gives Islam a bad name all 
around the world, what would that ground force look like, with 
the U.S. obviously only providing air support?
    Dr. Vickers. So I don't know where that outside-Syria Sunni 
ground force would come from. Most of those countries do not 
have large ground forces, and they are engaged already. So the 
UAE [United Arab Emirates] and Saudi Arabia really are engaged 
in Yemen in defense of their own territory. You know, the Turks 
are the ones who have significant manpower. But I think for 
practical political reasons, you know, our best option for a 
Sunni ground force in Syria is with Syrians, not with outside 
forces.
    Mr. Veasey. And the reason why I brought that up is because 
one of you had mentioned a little bit earlier about the fact 
that, more than social media, the fact that there--or the 
perception of Western forces are in there influencing really is 
more of a danger than the social media itself.
    Mr. Morell, I wanted to ask you a question also. You had 
made mention a little bit earlier, you talked about the 
Crusades and the fact that Christianity has, you know, come to 
a point now to where it is not--that, you know, we have moved 
beyond that in Christianity and that Islam needs to be able to 
get to that point at some time.
    But I want to ask you, more so than the teachings of 
Islam--and there has been a lot out there about whether or not 
there is a certain percentage of Muslims around the world that 
subscribe to more of a violent form of Medina Islam versus, you 
know, the Mecca that is more commonly known.
    But don't you think that really the problems that we are 
seeing in the Middle East and the radicalization really stems 
from a shift that happened in the 1970s with the Ayatollah and 
other religious leaders in that part of the world basically 
trying to, you know, put more of a radical form of Islam 
throughout their countries?
    Mr. Morell. So, Congressman, I think that extremism has 
been a problem within the religion for a very, very long time, 
since its birth actually.
    I think modern Islamic extremism can be dated to 1979. I 
think that is when modern Shia extremism started, with the 
revolution in Iran and the takeover of the U.S. Embassy and the 
direction the Iranian Government took as a result.
    And I also think that modern Sunni extremism started in 
1979, with the takeover of the Grand Mosque in Mecca by a group 
of Sunnis who believed that Saudi Arabia was modernizing way 
too quickly.
    So, yeah, I do think it has its roots in the late 1970s.
    Mr. Veasey. Thank you, Mr. Chairman.
    I yield back.
    The Chairman. It is interesting to think, if we could go 
back and do something different, could we? Would we? I don't 
know the answer to that.
    Mr. O'Rourke, you had another question.
    Mr. O'Rourke. Yeah. Thank you, Mr. Chairman. I wanted to 
follow up on the great response from Ambassador Ford on my 
question about what a peace process would look like.
    And you are much closer to this and have much greater 
experience and expertise on why the current U.N. Security 
Council process may not be a serious one. And if I heard you 
correctly, you said our strategy should be to arrive at a point 
of greater leverage against Assad, Iran, and Russia by better 
supporting and supplying those forces in opposition, excluding 
ISIL. And that will allow us then ultimately to enter 
negotiations on our terms, including, potentially, Assad 
stepping down.
    What do we expect, reasonably, Russia to do? If we 
escalate, does Russia say, ``All right, you guys win,'' or do 
they escalate? And then what does the next round of escalation 
look like? In other words, could you set our expectations on 
length of time, cost, and potential reactions to the other 
players in Syria?
    Ambassador Ford. Congressman, first, let me answer your 
question about Bashar al-Assad and should the United States 
accept him.
    As I said, I don't think it is up to us to say he should 
stay or he should not. The man has no legitimacy, but that is a 
different question from whether or not he should stay.
    I think we should judge whether or not Bashar al-Assad 
stays on this one criteria: If he stays, will the new national 
government under him be better able to mobilize Syrians to 
fight extremists or not? Will most of the armed opposition 
fighters, who are not extremists, will they then turn around 
and fight the extremists under a Bashar al-Assad-led government 
or not? That, to me, is the criteria.
    So with respect to your question about Russian and Iranian 
reactions, I think for a time they will also escalate. Already, 
I think the Turks and the Saudis are escalating in response to 
what the Russians and the Iranians have done. I can imagine 
that this will go up several levels more.
    It doesn't mean you can't have the peace talks start in the 
meantime, I think. Obviously, we would want that. I just don't 
think we are going to get very far in terms of mutual 
concessions and compromises until the Syrian Government and its 
allies feel more pain. I am sorry to say that, but it is what 
it is.
    Mr. O'Rourke. My understanding of the peace process as 
adopted by the Security Council is that, within 18 months after 
the talks begin, elections are to be held that include the 
Syrian diaspora. Now, that would, I think, arguably, result in 
the election of someone other than Bashar al-Assad.
    And, you know, however complicated it is to perform those 
elections, if you could in some way allow Syrians in Syria and 
outside of Syria to rally behind some person, then that might 
solve the concern that you raise there.
    Now, getting there, you know, that is quite a challenge. I 
would like to see us, to the degree we can, help to facilitate 
that process to get to where you argued we should be, which is 
Syrians deciding this for themselves.
    I don't know if either of the other panelists would like to 
comment on this.
    Dr. Vickers. No, I agree. And, you know, I think Russia's 
power to really escalate is somewhat limited. And you see 
strains right now in Iran and Hezbollah, but I think the two of 
them could actually probably do more, and they probably would, 
before they, you know, give up on this regime that has been so 
great to them for three decades.
    Mr. O'Rourke. Mr. Morell, any thoughts on Russia's response 
to additional escalation on our part?
    Mr. Morell. I agree with what both Robert and Mike have 
said. I am much more concerned about Iranian escalation than I 
am about Russian escalation.
    I think the key to getting the Russians on board with the 
strategy that you eloquently outlined here is to get the 
Russians to twist the arm of the Iranians. I think that is how 
the process has to go. Bring enough pain to the Russians where 
they see the solution that we all see, and then get them to 
twist the Iranians' arm.
    Mr. O'Rourke. Okay.
    Thank you for your responses and for being here.
    Thank you, Mr. Chairman.
    The Chairman. As you all have heard from a number of 
members, this has been tremendously helpful and insightful on 
some very difficult problems.
    Dr. Vickers, I need to publicly confess that I am quoting 
you a lot these days, when you said we ought to figure out what 
we would do after the next big 9/11-style attack here at home 
and do that before the attack. It seems to me to be a measure 
of common sense. I am not sure the President is on the same 
page with us, but it could certainly alleviate a lot of 
casualties here at home.
    But I think, Mr. Morell, you are exactly right; ISIS is a 
significant strategic and lethal threat. And, Ambassador, we 
have to deal with it in a way where it doesn't return in a new, 
even more virulent form in the future. It is a big challenge, 
as you all have said. It is going to take a while to do, but it 
is that serious and that significant.
    So thank you all for being here, for being willing to 
answer our questions.
    With that, the hearing stands adjourned.
    [Whereupon, at 12:37 p.m., the committee was adjourned.]

      
=======================================================================




                            A P P E N D I X

                            January 12, 2016
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            January 12, 2016

=======================================================================

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     

      
        
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            January 12, 2016

=======================================================================

      

      

                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. The situation on the so-called ``Mara Line'' in 
northwest Syria has been problematic for some time. From the failed 
train-and-equip of Syrian fighters which were then captured by the 
Nusra Front, to infighting between opposition groups, to continued 
advances by regime forces and ISIL, is it possible for the U.S. to 
change course in this strategic area and find new local or regional 
forces to lend support? If so, what forces would be best equipped and 
motivated to achieve U.S. goals?
    Mr. Morell. [No answer was available at the time of printing.]
    Mr. Langevin. The situation on the so-called ``Mara Line'' in 
northwest Syria has been problematic for some time. From the failed 
train-and-equip of Syrian fighters which were then captured by the 
Nusra Front, to infighting between opposition groups, to continued 
advances by regime forces and ISIL, is it possible for the U.S. to 
change course in this strategic area and find new local or regional 
forces to lend support? If so, what forces would be best equipped and 
motivated to achieve U.S. goals?
    Dr. Vickers. [No answer was available at the time of printing.]
    Mr. Langevin. Dr. Vickers, you have stated that we are attempting 
to ``play the long game'' in Iraq and Syria, but that we need a ``more 
rapid and disruptive strategy'' instead. How do you believe we can best 
implement a more rapid strategy in light of escalating involvement by 
Russia, Iran, and Saudi Arabia, for example?
    Dr. Vickers. [No answer was available at the time of printing.]
    Mr. Langevin. The situation on the so-called ``Mara Line'' in 
northwest Syria has been problematic for some time. From the failed 
train-and-equip of Syrian fighters which were then captured by the 
Nusra Front, to infighting between opposition groups, to continued 
advances by regime forces and ISIL, is it possible for the U.S. to 
change course in this strategic area and find new local or regional 
forces to lend support? If so, what forces would be best equipped and 
motivated to achieve U.S. goals?
    Ambassador Ford. [No answer was available at the time of printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FRANKS
    Mr. Franks. You do an excellent job pointing out why ISIL has been 
much more successful than Al Qaeda at recruiting allies and affiliates 
across the globe and that it presents a new and unique threat. Should 
the president authorize all of our combatant commanders to conduct 
status-based targeting of all ISIL affiliates in order to prevent or at 
least slow the spread of the ISIL?
    Mr. Morell. [No answer was available at the time of printing.]
    Mr. Franks. You have spoken of the urgency and necessity to shift 
our focus to Syria and that until we do so we will not be successful. 
Should we establish a no-fly zone in Syria? [If ``no'']: Isn't 
establishing a no-fly zone a precondition to stabilizing Syria and 
assisting groups who are both anti-Assad and anti-ISIL?
    Mr. Morell. [No answer was available at the time of printing.]
    Mr. Franks. You do an excellent job pointing out why ISIL has been 
much more successful than Al Qaeda at recruiting allies and affiliates 
across the globe and that it presents a new and unique threat. Should 
the president authorize all of our combatant commanders to conduct 
status-based targeting of all ISIL affiliates in order to prevent or at 
least slow the spread of the ISIL?
    Dr. Vickers. [No answer was available at the time of printing.]
    Mr. Franks. You have spoken of the urgency and necessity to shift 
our focus to Syria and that until we do so we will not be successful. 
Should we establish a no-fly zone in Syria? [If ``no'']: Isn't 
establishing a no-fly zone a precondition to stabilizing Syria and 
assisting groups who are both anti-Assad and anti-ISIL?
    Ambassador Ford. [No answer was available at the time of printing.]
    Mr. Franks. Is the Iraqi government in Baghdad currently making 
good-faith attempts at political reconciliation with the Iraqi Sunnis 
and Kurds?
    Ambassador Ford. [No answer was available at the time of printing.]

                                  [all]
</pre></body></html>
